Office of Inspector General
U.S. General Services Administration




Semiannual Report
to the Congress
October 1, 2012 – March 31, 2013
GSA’s Significant
Management Challenges
The Congress requested the Inspectors General of major federal agencies to report on the
most significant management challenges facing their respective agencies. Our strategic
planning process commits us to addressing these critical issues. The following table briefly
describes the challenges we have identified for GSA and references related work products
issued by the GSA OIG and discussed in this semiannual report.



CHALLENGE                          BRIEF DESCRIPTION OF CHALLENGE                                                           PAGE

Acquisition Programs               GSA awards and administers government-wide contracts worth hundreds of billions
                                   of dollars. With growing programs and shrinking numbers of qualified acquisition         3
                                   personnel, GSA continues to face challenges administering the GSA Schedules
                                   Program; developing the new multiple award contract vehicle, OASIS; and
                                   transitioning from FTS2011/Crossover contracts to the Networx contracts and then
                                   to Network Services 2020.

GSA’s Organizational Structure     With GSA’s initiative of a Top to Bottom review of the agency and its operations, it     No Reports
                                   is uncertain how the results will influence the structure of the organization and the    This Period
                                   effect on established systems and controls.

Consolidation of Central Office    As GSA physically consolidates the majority of its functions in Washington, D.C.         No Reports
1800 F Street, NW                  into a single location, there is a lack of space to concurrently accommodate all         This Period
                                   employees. The shift to increasing telework and hoteling poses new challenges to
                                   the operations and supervision of the agency’s more mobile workforce.

Information Technology             Improved planning, development, and implementation of information technology             No Reports
                                   systems and services is needed to ensure quality data and to support business            This Period
                                   decisions. GSA also needs to improve the protection of sensitive information and
                                   address emerging risks associated with cloud computing.

Financial Reporting                Controls over budgetary and financial reporting are affected by the absence of a
                                   single acquisition system that interfaces directly with GSA’s financial system. As a     7
                                   consequence, GSA management continues to rely heavily on manual workarounds
                                   and significant adjusting entries to prepare the financial statements and related note
                                   disclosures.

Protection of Federal Facilities   GSA is responsible for protecting the life and safety of employees and public visitors   No Reports
and Personnel                      in federal buildings. The increased risks from terrorism have greatly expanded the       This Period
                                   range of vulnerabilities.

Greening Initiative—               With its major role in federal building construction, operations, acquisitions, and      No Reports
Sustainable Environmental          policy, GSA faces challenges to lead change in achieving its goals for sustainability    This Period
Stewardship
                                   and a Zero Environmental Footprint.

American Recovery and
Reinvestment Act of 2009
                                   Mandated to obligate $5.5 billion for building projects within a 20-month period,
                                   GSA’s shortened planning and contracting phases will likely result in continual          9
                                   challenges as Recovery Act-funded projects are completed.
FOREWARD




Foreword
During this semiannual reporting period, the Office of Inspector General (OIG)
continued its important work in detecting fraud and mismanagement within the
General Services Administration’s (GSA) programs and operations.

   >> We issued 41 audit reports and recommended over $827 million in funds to
      be put to better use and in questioned costs;

   >> We made 390 referrals for criminal prosecution, civil litigation, and
      administrative action; and

   >> Management agreed with over $423 million of our audit findings, while civil
      settlements of court-ordered investigative recoveries totaled over $101 million.

Our Office of Audits continued to identify deficiencies in GSA’s acquisition programs,
financial reporting, and American Recovery and Reinvestment Act (Recovery
Act) projects, and has begun examining GSA’s organizational structure and the
consolidation of GSA’s central office in addition to GSA’s other significant management
challenges. Our Office of Forensic Auditing continued its proactive data analysis and
data-mining to uncover potentially fraudulent activities resulting in referrals to our Office
of Investigations. In the last six months, our Office of Investigations focused on major
procurement and construction fraud schemes. Most notably this period, our Offices
of Audits and Investigations worked together to determine that W.W. Grainger failed
to disclose commercial sales practices which constituted defective pricing and led to
overcharges. The company agreed to pay $70 million to the United States to resolve
false claims related to its government contracts.

Our office participated in a number of interagency committees and working groups.
On behalf of the President’s Financial Fraud Enforcement Task Force, I continued to
reach out to public and private sectors as well as state and local partners to fight fraud
on various levels. The OIG will also work with the Hurricane Sandy Working Group to
oversee the obligation and expenditure of disaster relief appropriations.

I am thankful and appreciative of the hard work, dedication, and professionalism our
OIG employees demonstrate every day. I thank the Members of Congress, the Office of
Management and Budget (OMB), and employees throughout GSA for their continued
support towards our common goals.




Brian D. Miller
Inspector General
April 30, 2013




OCTOBER 1, 2012 – MARCH 31, 2013                                                               i
                                                                                   CONTENTS




Contents
i	Foreword


iv	    OIG Profile
       iv	Organization
       v	 Office Locations
       v	 Staffing and Budget


vi	    OIG Organization Chart

vii	   Summary of OIG Performance

viii	Abbreviations


ix	    Executive Summary
       x	 Promoting and Protecting Integrity Highlights


3	     Management Challenges
       3	 Acquisition Programs
       7	 Financial Reporting
       9	 American Recovery and Reinvestment Act Impact
       13	 FAR Contractor Disclosures


15	    Promoting and Protecting Integrity
       15	 Civil Investigations
       16	 Criminal Investigations
       21	WPA Recoveries
       22	 Suspension and Debarment Initiative
       23	 Integrity Awareness
       23	Hotline


24	    Forensic Auditing, Evaluation, and Analysis
       24	 Forensic Auditing
       24	 Evaluation and Analysis


25	    Government-Wide Policy Activities
       25	 Interagency Committees and Working Groups
       27	 Legislation, Regulations, and Subpoenas
       28	Intra-agency Task Forces, Committees, and Working Groups


29	    Statistical Summary of OIG Accomplishments
       29	 Reports Issued
       29	 Management Decisions on Reports
       30	Management Decisions on Reports with Financial Recommendations
       30	Management Decisions on OIG Reports with Questioned Costs
       31	 Investigative Workload
       31	Referrals
       31	 Actions on OIG Referrals
       32	 Monetary Results




ii                       OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
CONTENTS




35	   Appendix I –
      Significant Audits from Prior Reports

39	   Appendix II –
      Audit Report Register

42	   Appendix III –
      OIG Reports over 12 Months Old, Final Agency Action Pending

47	   Appendix IV –
      Government Contractor Significant Report Findings

48	   Appendix V –
      OIG Reports Without Management Decision

49	   Appendix VI – Peer Review Results

50	   Appendix VII –
      Reporting Requirements

51	   Appendix VIII –
      OIG Offices and Key Officials




OCTOBER 1, 2012 – MARCH 31, 2013                                   iii
                                                                                    OIG PROFILE




OIG Profile
Organization
The GSA OIG was established on October 1, 1978, as one of the original 12 OIGs
created by the Inspector General Act of 1978. The OIG’s five components work
together to perform the missions mandated by Congress.

The OIG provides nationwide coverage of GSA programs and activities. Our
components include:

      >> The Office of Audits, an evaluative organization staffed with auditors and analysts
         who provide comprehensive coverage of GSA operations through program,
         financial, regulatory, and system audits and assessment of internal controls. The
         office conducts attestation engagements in support of GSA contracting officials
         to carry out their procurement responsibilities and obtain the best value for federal
         customers and American taxpayers. The office also provides other services to
         assist management in evaluating and improving its programs.

      >> The Office of Administration, a professional support staff that provides: budget
         and financial management, contracting, executive resources, facilities and
         support services, human resources and information technology services.

      >> The Office of Counsel, an in-house legal staff that provides legal advice and
         assistance to all OIG components, represents the OIG in litigation arising out of or
         affecting OIG operations, and manages the OIG legislative and regulatory review.

      >> The Office of Forensic Auditing, Evaluation, and Analysis, a multidisciplinary
         staff that employs innovative auditing and investigative techniques to conduct
         investigations and reviews of potentially fraudulent, improper, wasteful, or abusive
         activities within selected Agency operations and programs. The evaluation and
         analysis program conducts operational assessments of the OIG’s central and field
         offices and other operating components, implements the OIG’s Federal Managers’
         Financial Integrity Act program, and undertakes special projects and analyses as
         required by the Inspector General (IG).

      >> The Office of Investigations, an investigative organization that conducts a
         nationwide program to prevent, detect, and investigate illegal or improper activities
         involving GSA programs, operations, and personnel.




iv                       OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG PROFILE




Office Locations
The OIG is headquartered in Washington, D.C., at GSA’s Central Office Building. Field
and regional offices are maintained in Atlanta, GA; Auburn, WA; Boston, MA; Chicago,
IL; Denver, CO; Fort Lauderdale, FL; Fort Worth, TX; Kansas City, MO; Laguna Niguel,
CA; New York, NY; Philadelphia, PA; Sacramento, CA; San Francisco, CA; and the
Washington, DC area. A contact list of OIG offices and key officials is provided in
Appendix VIII.


Staffing and Budget
As of March 31, 2013, our on-board staffing level was 274 employees. The OIG is
operating under a full-year continuing resolution based on our FY 2012 budget of $58M
with a 0.2% rescission and an additional $471K in funds appropriated under the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The budget is subject to a 5%
sequestration reduction.




OCTOBER 1, 2012 – MARCH 31, 2013                                                       v
                                                                                  OIG ORGANIZATION CHART




                            OIG Organization Chart
                                          INSPECTOR GENERAL
                                              Brian D. Miller
                                       DEPUTY INSPECTOR GENERAL
                                            Robert C. Erickson



        OFFICE OF COUNSEL TO THE IG                                      OFFICE OF FORENSIC AUDITING,
                Richard Levi                                              EVALUATION, AND ANALYSIS
              Counsel to the IG                                             Patricia Sheehan, Director


  OFFICE OF COMMUNICATIONS AND
                                                                         Evaluations               Forensic
     CONGRESSIONAL AFFAIRS
                                                                        and Analysis               Auditing




OFFICE OF ADMINISTRATION                    OFFICE OF AUDITS                    OFFICE OF INVESTIGATIONS
      Larry Lee Gregg                      Theodore R. Stehney                     Geoffrey Cherrington
   AIG for Administration                    AIG for Auditing                      AIG for Investigations




         Budget and Financial             Audit Planning, Policy, and                  Investigations Operations
         Management Office                     Operations Staff                                 Division



                                             Administration and
           Contracting Office                                                      Internal Operations Division
                                             Data Systems Staff



                                                                                         REGIONAL OFFICES
       Executive Resources Staff/           Special Projects Office                        Washington, DC
         Human Capital Officer                                                               New York
                                                                                              Atlanta
                                                                                              Chicago
                                                                                            Kansas City
         Facilities and Support            Finance and Information                           Fort Worth
            Services Office                Technology Audit Office                         San Francisco
                                                                                              Auburn
                                                                                               Boston
                                                                                            Philadelphia
                                                Real Property
       Human Resources Division
                                                 Audit Office
                                                                                            SUB-OFFICES
                                                                                                Denver
                                                                                            Laguna Niguel
        Information Technology              Acquisition Programs                            Ft. Lauderdale
               Division                         Audit Office                                 Sacramento



                                                 REGIONAL
                                               AUDIT OFFICES
                                                  New York
                                                 Philadelphia
                                                   Atlanta
                                                   Chicago
                                                 Kansas City
                                                  Fort Worth
                                                San Francisco




 vi                                  OFFICE OF THE INSPECTOR | SEMIANNUAL REPORT TO THE CONGRESS
SUMMARY OF OIG PERFORMANCE




Summary of OIG Performance
October 1, 2012 – March 31, 2013

OIG ACCOMPLISHMENTS

Total financial recommendations                                                 $827,327,001
These include:
   Recommendations that funds be put to better use                              $824,527,958
   Questioned costs                                                               $2,799,043
Audit reports issued                                                                     41
Audit memoranda provided to GSA                                                          10
Management decisions agreeing with audit recommendations                        $423,895,895


RESULTS ATTAINED

Referrals for criminal prosecution, civil litigation, & administrative action           390
Indictments and informations on criminal referrals                                       33
Cases accepted for criminal prosecution                                                  34
Cases accepted for civil action                                                           9
Successful criminal prosecutions                                                         27
Civil settlements                                                                         9
Contractors/individuals suspended and debarred                                          165
Employee actions taken on administrative referrals involving GSA employees                13
Civil settlements and court-ordered and investigative recoveries                $101,940,034




OCTOBER 1, 2012 – MARCH 31, 2013                                                         vii
                                                                        ABBREVIATIONS




Abbreviations
ARRA/ Recovery Act	   American Recovery and Reinvestment Act
CFO	                  Chief Financial Officer
C.F.R.	               Code of Federal Regulation
CIGIE	                Council of Inspectors General for Integrity and Efficiency
CSP	                  Commercial Sales Practices
DCIS	                 Defense Criminal Investigative Service
DHS	                  Department of Homeland Security
FAR	                  Federal Acquisition Regulation
FAS	                  Federal Acquisition Service
FBI	                  Federal Bureau of Investigations
FEMA	                 Federal Emergency Management Agency
FY	                   Fiscal Year
GSA	                  General Services Administration
IFF	                  Industrial Funding Fee
IPERA	                Improper Payments Elimination and Recovery Act of 2010
IPIA	                 Improper Payments Information Act of 2002
IT	                   Information Technology
MAS	                  Multiple Award Schedule
NCR	                  National Capital Region
OAS	                  Office of Administrative Services
OCFO	                 Office of the Chief Financial Officer
OIG/IG	               Office of Inspector General/ Inspector General
OMB	                  Office of Management and Budget
PBS	                  Public Buildings Service
RWA 	                 Reimbursable Work Authorization
SBA	                  Small Business Administration
SDVOSB	               Service-Disabled Veteran-Owned Small Business
TAA	                  Trade Agreements Act
VA	                   Veterans Affairs
WPA	                  Works Progress Administration




viii             OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
EXECUTIVE SUMMARY




Executive Summary
The OIG continued to audit and investigate what it has identified as major management
challenges facing the Agency. Since October 1, 2012, the OIG has issued 41 audit
reports and 10 audit memoranda and referred 390 subjects for criminal prosecution,
civil litigation, or administrative action. The OIG also made over $827 million in financial
recommendations that funds be put to better use and in questioned costs, and its
efforts led to civil settlements and court-ordered and investigative recoveries of over
$101 million. Below are some of the highlights from this semiannual period.

Management Challenges Highlights

The OIG focused specifically on audits of GSA’s acquisition programs, financial
reporting, and Recovery Act initiatives.

Acquisition Programs. GSA provides federal agencies with billions of dollars in
products and services through various types of contracts. Because of their pre-
decisional, advisory nature, preaward audits play a crucial role in improving the
government’s negotiating position and in realizing millions of dollars in savings
government-wide. During this reporting period, the Office of Audits performed
preaward audits of 30 contracts with an estimated value of over $8.1 billion.
Management decisions were made on 24 of our preaward audits, which recommended
over $421 million of funds be put to better use. Four of our more significant audits
were Multiple Award Schedule (MAS) contracts with combined projected government
sales of more than $3.4 billion. These audits resulted in recommendations that nearly
$485 million of funds to be put to better use (page 3).

We produced a memorandum that addressed three recurring MAS issues highlighted
in previous preaward audit reports and noted that two of the three areas showed some
improvement, but high rates of reoccurrence still remain in FY 2011. We note that while
GSA contracting officers agreed with all auditor-recommended cost avoidances in our
preaward audits, they only achieved savings for 36% of this amount when the pending
option periods were awarded (page 4). We also issued a follow up audit of GSA’s
acquisition of services for the International Trade Center at the Ronald Reagan Building
and found that the Public Buildings Service (PBS) did not ensure all deliverables met
contract requirements and did not collect data to determine fair and reasonable pricing
(page 5). Furthermore, our audit of the prepayment audit process in the Transportation
Audits Division in the Federal Acquisition Service (FAS) found that FAS did not
adequately ensure that federal agencies audit all transportation bills prior to payment,
as required (page 6).

Financial Reporting. The OIG directed the audit of GSA’s FY 2012 Financial
Statements. It was performed by an independent public accounting firm, which
issued an unqualified opinion, identified no material weaknesses, but noted significant
deficiencies (page 7). Also during this semiannual period, the OIG conducted an
audit of improper payments GSA reported for FY 2012, as required by the Improper
Payments Elimination and Recovery Act of 2010 (IPERA) (page 8).




OCTOBER 1, 2012 – MARCH 31, 2013                                                          ix
                                                                           EXECUTIVE SUMMARY




Recovery Act. The Recovery Act of 2009 provided GSA with a $5.55 billion
appropriation for its Federal Buildings Fund to convert federal buildings into High-
Performance Green Buildings and to construct federal buildings, courthouses, and land
ports of entry. Due to the mandate that funds be obligated by September 30, 2011,
GSA faced challenges in planning and contracting in short time frames. The OIG
conducted oversight of these projects, and in this semiannual period, produced
reports on modifications at the 50 UN Plaza Renovation Project (page 9); the use of
contract modifications to invalidly preserve contingency funds (page 10); numerous
procurement, policy, and safety violations in PBS’s limited scope and small construction
projects (page 11); an absence of adequate guidance to determine compliance with
fee limitations for Architect/ Engineering contracts (page 11); inadequacies in GSA’s
fee structure for reimbursable services (page 12); and the procurement of masonry
repairs and roof replacements at the Goodfellow Road Federal Complex in Saint Louis,
Missouri (page 12).


Promoting and Protecting Integrity Highlights
The OIG also investigated fraud, waste, and abuse by GSA employees and contractors
and provided litigation support for civil fraud actions and criminal prosecutions.

Civil Recoveries. During this semiannual period, W.W. Grainger agreed to pay
$70 million to resolve false claims allegations (page 15); Corning, Inc., agreed to pay
$5.65 million to resolve a qui tam allegation that it knowingly submitted false claims for
products sold to the federal government (page 15); Lend Lease Construction, LMB Inc.,
agreed to pay the United States $1.6 million to resolve claims that it falsely billed the
government for overtime work not performed (page 16); and Iron Mountain Inc., agreed
to pay the United States $800,000 to settle a qui tam complaint (page 16).

Criminal Investigations. Employees responsible for the Lend Lease Construction
overbilling scheme were sentenced during this semiannual period (page 16). Four Navy
officials and three Department of Defense and GSA contractors were sentenced for
their roles in fraud and corruption scheme in Coronado, California in which defense
contractors provided the defendants with cash, checks, gift cards, and luxury items in
exchange for millions of dollars in orders with the contractors (page 17). The owner of
Persaud Companies, Inc., pled guilty to bank fraud and to the destruction of records
in a federal investigation after a relator filed a qui tam alleging fraudulent inflation of the
company’s cost estimates (page 17). A former air conditioning equipment mechanical
leader for the White House complex was sentenced to prison for stalking and theft
(page 17). A former Federal Emergency Management Agency (FEMA) employee
was charged with acting under a criminal conflict of interest after FEMA awarded a
subcontract to the Gallup Organization while the employment was discussing future
employment with Gallup (page 18). The OIG conducted an undercover investigation of
the purchase of Army Marathon watches from eBay with government funds (page 18).
The OIG investigated two bribery/ kickback schemes (page 18) as well as schemes
where business owners falsely certified their companies’ eligibility for HUBZone and
Service Disabled Veteran Owned Small Business (SDVOSB) contracts (page 19).
Additionally, our Office of Investigations aided in the prosecution of criminals for their
roles in various fleet credit card fraud schemes (pages 20-21).




x                     OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
EXECUTIVE SUMMARY




WPA Artwork. The GSA OIG continued its collaborative effort to recover artwork
commissioned in the New Deal Era to the United States. During this reporting period,
six pieces were recovered (page 21).

Suspension and Debarment. The OIG made 199 referrals for consideration for
suspension and debarment, and GSA issued 165 actions based on current and
previous OIG referrals (page 22).

Hotline. The OIG received 1,302 Hotline contacts from which 104 cases were initiated
(page 23).




OCTOBER 1, 2012 – MARCH 31, 2013                                                      xi
xii   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Management
Challenges
Since 1998, we have identified and shared with Congress and
senior GSA management those areas and issues we believe
to be the major challenges facing the Agency (This year’s list
is summarized on the front inside cover of this report).

During this reporting period, we continued our work addressing
these challenges by recommending corrective actions and
working with management to improve Agency operations.
The following highlights some of our activities.
MANAGEMENT CHALLENGES




Management Challenges
Acquisition Programs
GSA provides federal agencies with billions of dollars in products and services through
various contract types. As of March 31, 2013, there were over 19,500 MAS contracts
under GSA’s procurement program worth over $19.1 billion in total sales. We oversee
this program by conducting preaward, postaward, and performance audits. Historically,
for every dollar invested in our preaward audits, we achieve at least $10 in lower prices
or more favorable contract terms and conditions for the benefit of the government and
taxpayer.

Significant Preaward Audits

The pre-decisional, advisory nature of preaward audits distinguishes them from other
audit products. This program provides vital, current information enabling contracting
officers to significantly improve the government’s negotiating position and to realize
millions of dollars in savings on negotiated contracts. During this period we performed
preaward audits of 30 contracts with an estimated value of over $8.1 billion. We
recommended more than $824 million of funds be put to better use. Management
decisions were made on 24 preaward audit reports, which recommended over
$421 million of funds be put to better use. Management agreed with 100% of
our recommended savings.

Four of our more significant audits were MAS contracts with combined projected
government sales of more than $3.4 billion. These audits resulted in recommendations
of nearly $485 million of funds be put to better use. We identified the following significant
findings within one or more of our audit reports: current and proposed price reduction
clauses were ineffective; sales monitoring systems did not ensure proper administration
of the price reduction provisions of the contract; commercial customers received
greater discounts than those offered to GSA; commercial sales practice information was
noncurrent, inaccurate, and/or incomplete; pricing for the vendor’s non-product Special
Item Numbers was incomplete; controls over GSA sales reporting were inadequate
resulting in incorrect reporting of sales and/or payment of the Industrial Funding Fee
(IFF); and vendors overbilled GSA for unallowable costs and unqualified labor.




OCTOBER 1, 2012 – MARCH 31, 2013                                                           3
                                                                  MANAGEMENT CHALLENGES




Major Issues from Multiple Award Schedule Preaward Audits

Memorandum Number A120050-3, dated March 8, 2013

This memorandum was an update of three recurring MAS issues highlighted in
a September 26, 2011, memorandum. Specifically, we reported that for the MAS
preaward audits we conducted in FY 2010:

     >> The majority of vendors provided information that was not current, accurate,
        and/or complete to support their proposed prices;

     >> Nearly half of the vendors had either minimal or no non-federal commercial
        customers making it impossible to use non-governmental commercial sales as a
        basis for determining price reasonableness; and

     >> Over a quarter of the vendors we audited supplied labor that did not meet the
        minimum educational and/or experience qualifications required by the contracts.

Based on our review of FY 2011 MAS preaward audits, two of these areas showed
some improvement; however, the high rates of recurrence still remain a concern. We
also noted additional observations concerning the IFF identified by our audits.

In FY 2011, 42 of 53 preaward audits were based on information included in the
vendors’ Commercial Sales Practices (CSP) information. In 29 of these audits (69%),
the CSPs contained non-current, inaccurate, and/or incomplete information, an
improvement from FY 2010 audit results. Furthermore, we also reported the monetary
results of our analyses related to the recommended, agreed upon, and achieved
savings for FY 2011 audited MAS contracts as of October 1, 2012. However, if the
greater discounts identified through these 29 MAS preaward audits were negotiated, it
would result in nearly $77 million in savings over the contracts’ option periods.

Based upon the MAS preaward contracts we audited, the percentage of MAS vendors
with minimal or no commercial sales decreased from FY 2010 to FY 2011. This is
especially true with regard to the proportion of vendors with no commercial sales,
which decreased from 25% to 13%. Commercial customers accounted for 5% or less
of total sales for 18 of 53 vendors (34%) audited in FY 2011.

In addition, for the 21 service contracts audited in FY 2011, seven instances (33%)
were identified in which vendors charged customer agencies for labor that did not
meet required qualifications. This issue has not shown improvement from FY 2010.

In regards to IFF concerns, of the 53 preaward audits performed in FY 2011, 18
vendors (34%) did not have adequate systems for accumulating and reporting schedule
sales. We identified 19 vendors (36%) that did not properly compute the IFF, resulting in
monies owed to the government.




4                     OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




In FY 2011, FAS contracting officers agreed with all auditor recommended cost
avoidances but only achieved savings for 36% of this amount when the pending option
periods were awarded (based on 33 contracts negotiated, as of October 1, 2012).

Given that the problems identified in the initial September 26, 2011, memorandum
continue to exist, further efforts are needed to provide optimal benefits for GSA
customers and taxpayers. In addition, FAS should address the prevalence of IFF issues
and the rate of cost avoidances agreed upon versus savings achieved. While no formal
recommendations were made, we provided this information to better assist GSA in
addressing these issues.


Follow-up Audit of GSA’s Acquisition of Services for the International
Trade Center at the Ronald Reagan Building: PBS’s Oversight of Contract
Requirements

Report Number A110217/P/R/R13001, dated December 17, 2012

PBS National Capital Region (NCR) awarded a contract for the management and
operation of the International Trade Center (ITC) at the Ronald Reagan Building in
Washington, D.C.

The audit found that PBS did not ensure all deliverables met contract requirements,
compromising PBS’s oversight. In addition, PBS could be losing revenues and paying
inflated award fees by not verifying monthly revenue. PBS did not verify how much
revenue was earned or if it is properly classified. We also found that PBS did not collect
data to determine fair and reasonable pricing for future contracting actions thereby
failing to address preaward competition concerns. Finally, the contractor may owe PBS
$2.8 million for failure to meet original minimum revenue guarantees. These guarantees
were lowered by a PBS contracting officer, while a second PBS contracting officer
determined that the original minimum revenue guarantees should be restored. The
current determination found the contractor liable for refunding awards and paying the
shortfall for not reaching original revenue guarantee levels. This issue is with the Civilian
Board of Contract Appeals (CBCA).

We recommended that the Acting Regional Commissioner, PBS, NCR:

   >> Improve the processes for reviewing deliverables;

   >> Develop revenue verification processes to ensure that revenue amounts remitted
      are accurate and attributed correctly;

   >> Follow PBS’s plan to address preaward competition concerns; and

   >> Modify the contract to integrate a decision and/or settlement of the issue before
      the CBCA.

PBS management agreed with the report recommendations.




OCTOBER 1, 2012 – MARCH 31, 2013                                                           5
                                                                    MANAGEMENT CHALLENGES




Audit of the Prepayment Audit Process, Transportation Audits Division,
Federal Acquisition Service

Report Number A120060/Q/9/13001, dated March 14, 2013

This audit disclosed that FAS did not adequately ensure that federal agencies audit all
transportation bills prior to payment, as required. Although FAS is planning to transfer
the prepayment audit oversight role, the Transportation Audits Division (TAD) must
continue to ensure compliance with Public Law 105-264. Public Law 105-264 requires
federal agencies to conduct prepayment audits of all transportation billings. In addition,
the law grants authority to GSA for oversight of agencies’ prepayment audits. TAD is
responsible for ensuring agencies comply.

TAD could assist federal agencies to minimize transportation overcharges through
effective monitoring methods, such as: obtaining a complete universe of prepayment
transportation audits, analyzing available transportation audit data, and evaluating
prepayment audit programs. Given the nearly $17 billion of government-wide
transportation expenses for FY 2011, the likelihood of federal agencies paying for
transportation overcharges increases without effective oversight.

We recommended that the Acting FAS Commissioner:

     >> Direct FAS to continue its efforts to identify the best method(s) to determine the
        universe of federal agencies required to comply with Public Law 105-264;

     >> Improve oversight performance by ensuring complete and comparable data are
        used to assess agency compliance with Public Law 105-264;

     >> Contact agencies with low compliance rates to identify and address the reasons
        for lack of compliance;

     >> Improve monitoring of agency compliance with Public Law 105-264 by using and
        analyzing transportation data more thoroughly; and

     >> Obtain, review, and approve all prepayment audit programs.

The Acting FAS Commissioner agreed with our report recommendations.




6                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Financial Reporting
Controls over budgetary and financial reporting are affected by the absence of a single
acquisition system that interfaces directly with GSA’s financial system. As a consequence,
GSA management continues to rely heavily on manual workarounds and significant
adjusting entries to prepare the financial statements and related note disclosures.


Audit of GSA’s Fiscal Year 2012 Financial Statements

Report Number A120101/B/F/F13001, dated December 20, 2012

In accordance with the CFO Act of 1990, the OIG directed the audit of GSA’s FY 2012
Financial Statements. The audit was performed by an independent public accounting
firm (IPA), with oversight and guidance provided by the OIG. The IPA issued an
unqualified opinion on the balance sheets and the related consolidated and individual
statements of net cost, changes in net position, and the combined and individual
statements of budgetary resources for the Agency, the Federal Buildings Fund, and the
Acquisition Services Fund, for the year ended September 30, 2012.

The IPA did not identify any material weaknesses related to financial management
systems, internal controls, or financial reporting, but did note the following significant
deficiencies:

   >> For controls over budgetary accounts and transactions, internal control
      deficiencies existed in GSA’s financial management systems and financial
      reporting processes related to the recording of undelivered orders and recoveries
      of prior years’ obligations. In addition, control deficiencies existed in the
      processing of unfilled customer orders, apportionments, and fund controls;

   >> For controls over accounting and reporting of property and equipment, GSA did
      not consistently record property disposals when they occurred and the transfers
      of substantially completed projects in a timely manner. Also, the fixed asset
      subsidiary ledger was not configured properly to capture gains and losses from
      asset disposals;

   >> For the controls over accounting and reporting of environmental liabilities, GSA
      did not implement revised Accounting for Environmental Liabilities Guidelines
      to identify and investigate properties that may contain hazardous substances.
      This resulted in GSA not providing enough guidance to regional offices to clearly
      determine, document, and communicate environmental liabilities;

   >> For the controls over leases, occupancy agreements, and financial management
      and reporting, GSA did not ensure that transactions are recorded promptly
      and accurately, and properly classified in accordance with federal financial
      accounting standards;




OCTOBER 1, 2012 – MARCH 31, 2013                                                            7
                                                                   MANAGEMENT CHALLENGES




     >> For general controls over financial management systems, GSA did not have
        adequate information technology controls to protect its financial management
        systems, as required by OMB Circular No. A-130, Management of Financial
        Information Resources; and

     >> For entity-level controls, GSA does not have an effective foundation of controls to
        address technical accounting issues, the management of regional and operational
        financial accounting and reporting personnel, and to address systemic conditions
        with financial systems.

The IPA issued a number of recommendations to correct the reported significant
deficiencies.


Audit of GSA’s Improper Payments Performance

Report Number A130014/B/F/F13002, dated March 14, 2013

As required by the Improper Payments Information Act of 2002 (IPIA) and as ameneded
by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), we
conducted an audit of improper payments GSA reported for FY 2012. We determined
that GSA complied with the IPIA in FY 2012 by publishing an Agency Financial Report
(AFR); conducting a program specific risk assessment for each of its programs or
activities; issuing improper payment estimates for all programs and activities; publishing
programmatic corrective action plans in the AFR; issuing annual reduction targets
for each program; reporting a gross improper payment rate of less than 10% for
each program and activity included in its improper payments report; and reporting
information on efforts to recapture improper payments.

In the FY 2012 AFR, GSA reported that, since FY 2004, its payment recapture audit
program has identified $108.8 million in improper payments. However, GSA’s payment
recapture program efforts need additional management oversight and guidance to
ensure program integrity. Specifically, we found that due to a transposition error, the
GSA AFR did not accurately present the aging of outstanding overpayments; the
recovery audit contract did not meet the minimum requirements for using an external
contractor for payment recapture audits; and the CFO has not completed policy
revisions to incorporate IPERA requirements.

We recommended that the Office of the Chief Financial Officer (OCFO):

     >> Strengthen internal controls surrounding the preparation and review of the Other
        Accompanying Information section of the AFR to ensure accurate reporting;

     >> Modify contract language to satisfy OMB requirements for using an external
        contractor for payment recapture audit services and ensure the requirements are
        fulfilled; and

     >> Issue official policy incorporating IPERA requirements.

The OCFO agreed with the report recommendations.




8                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




American Recovery and Reinvestment Act Impact
The Recovery Act provided GSA with a $5.55 billion appropriation for its Federal
Buildings Fund. In accordance with the Act, PBS is using the funds to convert federal
buildings into High-Performance Green Buildings, as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5
billion of the funds be obligated by September 30, 2010, and that the remaining funds
be obligated by September 30, 2011. Under this mandate GSA’s project teams have
had to plan and contract for projects within extremely short timeframes. Even with
the addition of new employees and contract support staff, meeting these deadlines
has strained the capabilities of the project teams even before the beginning of actual
construction for these projects. The OIG is conducting oversight activities including
internal audits, attestation engagements, and audit memoranda of construction and
modernization projects funded by the Recovery Act.


Audit of PBS’s Major Construction and Modernization Projects, Modifications at
50 UN Plaza Renovation Project

Report Number A090172/P/R/R13003, dated March 27, 2013

The audit disclosed that PBS created an invalid obligation resulting in the expiration of
$4.2 million of Recovery Act funds. PBS issued a modification using the price-to-be-
determined later methodology, obligating funds in excess of the awarded amount. After
being notified by the OIG, PBS corrected the improper obligation and properly used the
expired funds as an upward adjustment.

Further, PBS issued five contract modifications using Minor Repairs and Alterations
(R&A) funds to supplement Recovery Act funding. Minor R&A funds are generally
intended for R&A work below the prospectus threshold. While PBS policy allowed
the use of R&A funds in combination with Recovery Act funding, PBS did not notify
Congress per PBS policy.

In addition, PBS used Building Operations funds to pay for tenant improvements in
support of other GSA components. Tenant-requested changes are funded by the
tenant agency using a Reimbursable Work Authorization (RWA). In this case, PBS
used Building Operations funds, intended for the management and administration of
PBS programs.

We recommended that the PBS Commissioner and the Acting PBS Regional
Commissioner, Pacific Rim Region:

   >> Notify Congress and OMB of inaccurate Recovery Act financial reporting on the
      50 UN Plaza project caused by the invalid obligation;

   >> Develop and implement policy to establish appropriate use of price-to-be-
      determined later modifications and to prevent the obligation of funds in excess of
      awards made to contractors;

   >> Notify Congress and OMB of the use of minor R&A funds to supplement the
      50 UN Plaza Recovery Act project; and




OCTOBER 1, 2012 – MARCH 31, 2013                                                          9
                                                                      MANAGEMENT CHALLENGES




      >> Obtain funding from other GSA components for the cost of tenant-requested
         improvements or notify Congress and OMB about the use of Building Operations
         funds for other GSA components.

The PBS Commissioner and Acting PBS Regional Commissioner, Pacific Rim Region,
agreed with the report recommendations.


Limited Scope Audit of Invalid Obligations and Contingency Funding for
Recovery Act Projects

Report Number A120174/P/R/W13001, dated October 24, 2012

In anticipation of having Recovery Act funds rescinded during the FY 2011 budget
impasse, PBS issued contract modifications to preserve project contingency funds.
However, these modifications did not definitize work to be performed and, therefore, did
not create valid obligations. The funds were scheduled to be rescinded on December
31, 2012, along with all other Recovery Act funds. As a result, Recovery Act reporting
has been inaccurate and invalidly obligated funds have expired and will be rescinded.

The results showed PBS did not create legal liabilities on the actions reviewed. To
create a valid obligation, the Government must incur a legal liability to pay for goods
or services ordered or received or a legal duty that could mature into a legal liability
without Government action. Contract modifications lacked a defined scope and price,
so the Government was not obligated to pay for specific goods or services.

We recommended that the Acting Administrator, PBS Commissioner, and Acting CFO:

      >> Identify all invalid obligations, deobligations, and reobligations of Recovery Act
         funding and ensure that those funds are used appropriately;

      >> Notify OMB that Recovery Act funds have been invalidly obligated and that past
         reporting of obligations has been inaccurate; and

      >> Notify Congressional committees with jurisdiction, as appropriate.

The Acting Administrator, PBS Commissioner, and Acting CFO agreed to treat
the funding as expired and perform a review to identify modifications with funding
concerns, reserving the right to reach a contrary conclusion in cases similar to the
examples in this report.




10                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Review of PBS’s Limited Scope and Small Construction Projects Funded by the
American Recovery and Reinvestment Act of 2009

Report Number A090184/P/R/R13002, dated February 21, 2013

This audit disclosed that PBS violated numerous procurement, policy, and safety
requirements violated the Federal Acquisition Regulation (FAR) by paying the roof
contractor profit on work that was not performed; the space renovations were
not a cost-effective use of Recovery Act funds; the renovations contract violated
the Recording Statute and FAR pricing regulations; made an insufficient price
reasonableness determination; waived fire safety requirements; inappropriately used
Recovery Act funds to purchase office furniture, and the furniture contract violated the
Recording Statute.

We recommended that the NCR Regional Administrator:

   >> Implement a documented control process to ensure that settlement agreements
      comply with FAR contract termination requirements;

   >> Develop a process to ensure that contract and project management staff evaluate
      the cost-effectiveness of High-Performance Green Building projects;

   >> Develop a control process to ensure that statements of work fully define and
      develop requirements prior to award in order to comply with the Recording
      Statute and FAR; and

   >> Ensure conformance with fire safety regulations and guidance and disallow
      waivers from these requirements, regardless of project budget or schedule.

The NCR Regional Administrator partially agreed with the report recommendations.


Audit of PBS Compliance with Fee Limitations for Architect/Engineering
Contracts

Report Number A090172/P/4/R13004, dated March 29, 2013

This audit disclosed that PBS lacks adequate guidance to determine compliance with
the fee limitation imposed by FAR Part 15.404-4(c)(4)(i)(B) to Architect/Engineering
(A/E) services. Instead, PBS uses the Project Management Guide and a chart from
PBS Manual 3420.1 to separate included and excluded services. Interpretation of the
guidance varies and application is inconsistent across regions. Based on interpretation,
a non-compliant contract may be reported as compliant or vice versa.

The Guide requires identification of included and excluded services in the Price
Negotiation Memorandum. However, services were not identified in eight of nine A/E
contracts sampled. PBS drafted a Procurement Instructional Bulletin in 2011, which
remained unofficial until January 2013. Without adequate guidance, the audit was
unable to verify PBS calculations or perform independent evaluations.




OCTOBER 1, 2012 – MARCH 31, 2013                                                      11
                                                                    MANAGEMENT CHALLENGES




We recommended that the Commissioner of PBS:

      >> Implement clarifying guidance on applying the fee limitation to A/E contracts;

      >> Develop and implement controls to ensure compliance with the fee limitation
         imposed by FAR Part 15.404-4(c)(4)(i)(B); and

      >> Revise Project Management Guide Forms to require the identification and
         separation of services included in and excluded from the fee limitation.

The PBS Commissioner agreed with the report recommendations.


Special Project Memorandum: Use of Fee Waiver to Offset $2.4 Million Loss of
Customer Funds

Memorandum Number A090168-08, dated December 18, 2012

Our review disclosed that the GSA fee structure for reimbursable services inadequately
addresses cross-service project management and contract support. PBS and FAS
operate under separate revolving fund authorities. Both services charge a “project
management fee” to cover the expense of providing services to customer agencies
(the FAS equivalent is an “assisted acquisition fee”). GSA finds no authority to fully or
partially exempt any eligible transaction from PBS’s fee; however, it has found that FAS
can vary or waive entirely its fee on a case-by-case basis. An ambiguity arises when
reimbursable work involves the combined efforts of both services.

Our review concerned a GSA proposal to compensate Department of Homeland
Security (DHS) $2.4 million in expired Recovery Act funds intended for Information
Technology (IT) support services. Funding flowed from DHS to PBS under an RWA.
PBS, in turn, engaged FAS to manage the IT acquisition. Funds expired, unused, on two
FAS task orders in particular. GSA has proposed waiving the FAS assisted acquisition
fee on a much larger, related IT procurement to compensate DHS for the loss.

GSA needs to address this matter with well-defined procedures to ensure full cost
recovery in the aggregate.


Review of Procurements of Roof Replacement and Masonry Work at the
Goodfellow Road Federal Complex in Saint Louis, Missouri

Audit Memorandum Number A090184-13, dated January 7, 2013

During our review of the award and administration of three sole-source contracts for
masonry repairs and roof replacements at the Goodfellow Road Federal Complex in
Saint Louis, Missouri, we identified three issues: building surveys indicated that some
work was unnecessary (e.g., some roofs did not need replacement); contracts could
have been combined and competed; the selection of a single contractor for a number
of sole source procurements indicated a disregard for competition requirements.




12                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Region 6 PBS stated that roof moisture surveys by a third party roofing expert
consistently identified various issues with the roofing membrane and metal flashing.
A visual inspection of the remaining identified similar issues. Although PBS included
copies of the moisture studies, there was no explanation of the discrepancies between
those surveys and the life cycle analyses we reviewed.

PBS stated that time constraints, prior experience with the contractor and the logistical
need to phase the work required separating the projects rather than combining them
for competition purposes. By handling the projects in this manner, the advantages
of competition were not obtained because other contractors were not given an
opportunity to bid. Thus, the government may have overpaid for the roof replacement.
Our review maintained that the procurements should have been combined and
competed.

Finally, PBS indicated that selected contractors are required to provide multiple bids for
any subcontracted work, and all of the work is subject to negotiation, thus ensuring a
fair and reasonable price is obtained by the Government for the work. We maintained
that awarding the majority of sole-source awards to one contractor contradicts the
intention of the Recovery Act. Additionally, competition requirements of the FAR were
not met by ensuring the contractor obtained bids from multiple subcontractors.


FAR Contractor Disclosures
The FAR requires government contractors to disclose credible evidence of violations
of federal criminal law under Title 18 of the United States Code (18 U.S.C.) and the
False Claims Act to agency OIGs. To facilitate implementation of this requirement, we
developed internal procedures to process, evaluate, and act on these disclosures, as
well as created a website for contractor self-reporting.

FAR Rule for Contractor Disclosure

Effective December 12, 2008, the Civilian Agency Acquisition Council and the Defense
Acquisition Regulations Council agreed on a final rule amending the FAR. The final rule
implements the Close the Contractor Fraud Loophole Act, Public Law 110–252, Title
VI, and Chapter 1. Under the rule, a contractor must disclose, to the relevant agency
OIG, credible evidence of a violation of federal criminal law (e.g., 18 U.S.C. or the False
Claims Act) including fraud, conflicts of interest, bribery, or the offering or acceptance
of gratuities connected to the award, performance, or closeout of a government
contract performed by the contractor or a subcontractor. The rule provides for
suspension or debarment when a principal knowingly fails to disclose, in writing, such
violations in a timely manner.




OCTOBER 1, 2012 – MARCH 31, 2013                                                         13
                                                                MANAGEMENT CHALLENGES




Disclosures for this Reporting Period

As disclosures are made, the Offices of Audits, Investigations, and Counsel jointly
examine each acknowledgment and make a determination as to what actions, if any,
are warranted. During this reporting period, we received 13 new disclosures. These
disclosures were connected to allegations of employee fraud and inappropriate
behavior, as well as failures to comply with contract requirements related to CSP
disclosures, billings, price reduction monitoring, payment of the IFF, and the Trade
Agreements Act (TAA). We concluded our evaluation of seven existing disclosures that
resulted in $1,538,765 in settlements and recoveries to the Government and assisted
on four disclosures referred by another agency because of their potential impact on
GSA operations. Finally, we continued to evaluate 39 existing disclosures during this
reporting period.




14                  OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
PROMOTING AND PROTECTING INTEGRITY




Promoting and Protecting Integrity
GSA is responsible for providing working space for one million federal employees.
The Agency also manages the transfer and disposal of excess and surplus real and
personal property and operates a government-wide service and supply system. To
meet the needs of customer agencies, GSA contracts for billions of dollars’ worth
of equipment, supplies, materials, and services each year. We conduct reviews
and investigations in all these areas to ensure the integrity of the Agency’s financial
statements, programs, and operations, and that the taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is
responsible for initiating actions and inspections to prevent fraud, waste, and abuse
and to promote economy and efficiency. When systemic issues are identified during
investigations, they are shared with GSA management for appropriate corrective
action. During this period, civil, criminal, and other monetary recoveries totaled over
$101 million (see Tables 5 and 6).


Civil Investigations
The Office of Investigations consolidated investigative efforts related to civil recoveries
involving qui tam filings, FAR disclosures, and TAA violations in its Washington, D.C.
field office. In recognition of the need to expand civil recovery efforts throughout its
field offices, the GSA OIG formalized this initiative as a separate unit to make use of the
expertise the organization has gained through previous successful investigations. The
unit serves as a one-stop shop for expert information and advice that is necessary to
conduct civil investigations, and which contributed to the successes outlined below.


W.W. Grainger Pays $70 million to Resolve False Claims Allegations

On December 26, 2012, W. W. Grainger agreed to pay $70 million dollars to resolve
false claims related to its GSA MAS contract and two U.S. Postal Service sanitation
and maintenance supply contracts. A GSA OIG audit of Grainger’s transactions
identified likely false claims. The government concluded that Grainger failed to disclose
its commercial sales practices accurately during negotiations with GSA for its MAS
contract, which constituted defective pricing and led to overcharges.


Corning Settles Qui Tam Through $5.65 Million Payment

On February 7, 2013, Corning, Inc., agreed to pay $5.65 million to resolve a qui tam
complaint alleging that it knowingly submitted false claims for laboratory research
products sold to federal agencies through its Life Sciences division. This qui tam
claimed that Corning failed to provide GSA with accurate information concerning
its commercial sales practices (including discounts offered to its commercial basis
of award customers) or to adhere to the price reduction clause in its contract. This
settlement was the result of a coordinated effort by the GSA OIG, the U.S. Attorney’s
Office for the District of Columbia, and the Commercial Litigation Branch in the
Department of Justice’s Civil Division.




OCTOBER 1, 2012 – MARCH 31, 2013                                                        15
                                                      PROMOTING AND PROTECTING INTEGRITY




Lend Lease Construction LMB, Inc., Settles $1,616,586 in Qui Tam Claims

On February 6, 2013, Lend Lease (US) Construction LMB Inc. (formerly known as
Bovis Lend Lease LMB, Inc.), agreed to pay the United States $1,616,586 to resolve
claims that it falsely billed the government for overtime performed by its foremen over
an approximately ten-year period. In settling the claim, Bovis acknowledged that it
had billed the government for hours that were not worked by adding one or two hours
of overtime per day to the time sheets of its foremen; billed the government for time
charged while foremen were absent from work; and paid its foremen lump sum and
stipend payments and billed such payments to the government. This settlement was
the result of a coordinated investigation by the U.S. Attorney’s Office for the Southern
District of New York and the GSA OIG.


Iron Mountain, Inc., Agrees to Pay Government $800,000 to Settle Qui Tam

On December 18, 2012, Iron Mountain, Inc., agreed to pay the United States $800,000
to resolve a qui tam complaint that it failed to shred government documents to the
fragment size specified in its contract. On March 12, 2012, the government filed
a Notice of Election to Decline Intervention in the Civil Action; however, the relator
proceeded with the civil action on behalf of the United States, as permitted under the
False Claims Act. This settlement was the result of a coordinated effort by the relator,
the GSA OIG, the U.S. Attorney’s Office for the Eastern District of Pennsylvania, and the
Commercial Litigation Branch of the Department of Justice’s Civil Division.


Criminal Investigations

Former Bovis Lend Lease LMB, Inc., Employees Sentenced

On November 20, 2012, James Abadie, former Principal in Charge of the Bovis Lend
Lease LMB, Inc., office in New York City, was sentenced to 24 months of supervisory
release and 750 hours of community service, and ordered to pay a $175,000 fine and
a $100 special assessment. On December 20, 2012, John Hyers, Sr., former General
Superintendent for the same office, was sentenced to 12 months of supervisory release
and ordered to pay a $15,000 fine and a $100 special assessment. These sentences
follow the defendants’ guilty pleas to charges of mail and wire fraud and conspiracy
stemming from their role in a ten-year overbilling scheme. A joint investigation
conducted by the GSA OIG, the Department of Labor OIG, the Federal Bureau of
Investigations (FBI), the New York/New Jersey Port Authority OIG, and the NYC
Department of Investigations revealed that Bovis intentionally inflated the billable work
hours of its employees assigned to federal and state funded construction projects,
and misrepresented the work performed by its minority business enterprise partners.
Bovis agreed to pay $51 million in penalties and restitution to the federal government
and institute corporate reforms to prevent future fraud, in exchange for a deferred
prosecution agreement from the U.S. Attorney for the Eastern District of New York and
the New York County District Attorney.




16                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
PROMOTING AND PROTECTING INTEGRITY




Three Convicted and Seven Sentenced in an On-going Bribery Investigation
in Southern California

On October 9, 2012, four Navy officials and three Department of Defense and GSA
contractors were sentenced for their roles in a wide-ranging fraud and corruption
scheme at the Naval Air Station (NAS) North Island, in Coronado, California. Previous
investigation revealed defense contractors provided the defendants with over $1 million
in cash, checks, retail gift cards, flat screen television sets, luxury massage chairs,
home appliances, bicycles costing thousands of dollars, model airplanes, and home
remodeling services. In return, the officials placed millions of dollars in orders with the
defense contractors. As a result, Donald Vangundy, Kiet Luc, Paul Grubiss, Michael
Graven and John Newman received prison sentences ranging from 18 to 41 months.
Brian Delaney and David Lindsay were placed on probation for three years, but were
required to serve 30 consecutive weekends in federal custody. Additionally, each
defendant was ordered to pay restitution to the Navy; three defendants were also
ordered to pay restitution to the Internal Revenue Service. Total restitution was over
$3 million. The court also ordered forfeiture of dozens of gift cards, electronics, and
other items.


Company Owner Pleads Guilty to Bank Fraud and Creating/Destroying Evidence

On March 14, 2013, Andy Persaud, owner of Persaud Companies, Inc., pled guilty
to bank fraud and to destruction, alteration, or falsification of records in a federal
investigation. A joint GSA OIG and FBI investigation revealed that he fraudulently
obtained a $1.6 million bank loan from a local bank by posting as collateral inflated
invoices to the government and fictitious contracts. Persaud also directed company
employees to destroy documents responsive to a GSA Inspector General subpoena,
and fabricate documents to produce instead. The investigation began after a relator
filed a qui tam alleging that Persaud fraudulently inflated his company’s cost estimates
to maximize company profits on the company’s sole-sourced 8(a) contracts.


White House Maintenance Tech Sentenced to Six Months in Prison

On December 14, 2012, Donald Davis, a former GSA air conditioning equipment
mechanical leader, was sentenced to six months in prison, two years of supervised
release, and a $100 special assessment. Davis had pled guilty to stalking and theft
after a GSA OIG investigation that revealed that he threatened his former girlfriend and
her friend, sending hundreds of unwanted text messages and phone calls at all hours
of the night. Davis also stole more than $10,000 in government air conditioning units,
supplies, and tools, many of which were recovered in the execution of a December
2011 search warrant for his residence. He worked at the White House Service Center
as an air conditioning repair technician, and was responsible for maintaining the air
conditioning units in the east and west wings of the White House.




OCTOBER 1, 2012 – MARCH 31, 2013                                                        17
                                                      PROMOTING AND PROTECTING INTEGRITY




Former FEMA Employee Charged with Conflict of Interest

In January 2013, a former employee of the FEMA was charged with acting under
a criminal conflict of interest. In 2008, FEMA awarded a subcontract to the Gallup
Organization while the employee was discussing possible future employment with
Gallup. After Gallup extended an employment offer, the employee retired from
FEMA. The employee had previously certified that he had no arrangements for post-
government employment. The investigation was conducted by GSA OIG, FBI, Defense
Criminal Investigative Service (DCIS), and DHS OIG Special Agents.


GSA OIG Undercover Investigation Reveals Army Theft Conspiracy

On October 24, 2012, Staff Sergeant Markis Battle and Sergeant First Class Raphael
Mendez pled guilty to theft of government property. On December 19, 2012, First
Sergeant Edwin Cordero was sentenced to restitution of $3,032, a $500 fine and a
$100 special assessment for his role in the same scheme. (Battle and Mendez have
yet to be sentenced.) The GSA OIG had conducted an undercover investigation of the
sale of Army Marathon watches being offered for sale on eBay. After purchasing some
of the watches offered and verifying that they had been purchased by the government,
agents determined that the defendants had altered ordering system entries to hide
the purchases from unit commanders. The defendants used government funds to
purchase 175 watches worth an estimated $265,000. This GSA OIG led investigation
was conducted jointly with Army Criminal Investigation Division’s (CID) Major
Procurement Fraud Unit.


Office Supply Company Owner Sentenced for Bribery/Kickback Scheme

On January 28, 2013, Ashley A. Lamere was sentenced to 100 months’ imprisonment,
three years’ probation, restitution of $33,800, and forfeiture of $244,890. She had
pled guilty to bribery and wire fraud. Previous investigations conducted jointly by the
GSA OIG, the Naval Criminal Investigative Service, the FBI, DCIS, and the Army CID
revealed that Lamere, who owned a group of office supply companies, paid bribes and
kickbacks to government purchase credit card holders as enticements to order office
supplies from her companies at greatly inflated prices.


Company Owner Sentenced for Violations Stemming from Bribery of
GSA Employee

On December 20, 2012, Andre Lipford, owner of Sun Development, agreed to plead
guilty to charges of bribery. A joint GSA OIG and FBI investigation revealed that Lipford
made two bribe payments to a cooperating defendant (a GSA employee) in exchange
for his company being awarded a contract for work at GSA facilities in Maryland.




18                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
PROMOTING AND PROTECTING INTEGRITY




Idaho Business Owner Sentenced for Scheme to Defraud the
Federal Government

On January 8, 2013, Patrick Large, owner of an Idaho roofing business, was sentenced
to three years’ probation, 80 hours of community service, and a fine of $65,000, and
ordered to forfeit $150,000. The sentence follows Large’s guilty plea to wire fraud
following a multi-year investigation conducted by the Small Business Administration
(SBA) OIG, the Internal Revenue Service, the Department of Interior OIG, the
Department of Agriculture OIG, the VA OIG and the Defense Criminal Investigative
Service. The investigation revealed that Large devised a scheme to defraud federal
agencies by making false representations regarding his company’s eligibility to obtain
$218,241 in contracts through the HUBZone program.


Business Owner Indicted in SDVOSB Fraud Scheme

On October 2012, the owner of a GSA contractor was indicted in the District of
Massachusetts for conspiracy to defraud the government and wire fraud. Investigation
revealed that a disabled veteran would nominally serve as the company president to
secure SDVOSB contracts with GSA, the Department of Veterans Affairs, the Army and
the Navy during the time period of 2005-2010. However, contrary to federal regulations,
the veteran had no real responsibility within the company, and he was not the highest-
paid officer in the company. Emails between the owner and his accountant revealed a
scheme to clear $2.5 million from the company as well as other hidden compensation.
This investigation was conducted by the GSA OIG, Veteran’s Affairs (VA) OIG, SBA OIG,
and Army CID.


Fictional “War Hero” Sentenced for SDVOSB Fraud

On November 5, 2012, Warren Parker, the owner of Silver Star Construction, was
sentenced to seven years and three months in prison and ordered to pay $6,836,277
jointly and severally with his co-defendants. Parker had represented himself as a
decorated veteran with many awards and medals for military service in Vietnam, and
represented his company as a SDVOSB to secure government contracts. However,
a joint investigation conducted by the OIGs from GSA, SBA, and VA determined that
Parker was not service-disabled; he never served in Vietnam, and he never received
the Silver Stars or Purple Hearts he claimed. Silver Star Construction was therefore not
eligible for the contracts it received through the SDVOSB program.




OCTOBER 1, 2012 – MARCH 31, 2013                                                     19
                                                      PROMOTING AND PROTECTING INTEGRITY




Vehicle Maintenance Vendor Sentenced in Vehicle Repair Scam

On January 25, 2013, Robert Horton, owner of Over the Hill Auto Repair in Calcium,
New York, was sentenced to six months of home confinement, five years of supervisory
release, $34,000 in restitution, and a $100 special assessment. Horton had pled guilty
to false claims for repairs to GSA vehicles that either had not been performed or were
unnecessary. The GSA fleet vehicles involved in the scheme were leased to the Army
at Ft. Drum, New York. This case was initiated based on information received from the
GSA Region 2 fleet management and was investigated in collaboration with the Army
Criminal Investigation Division.


Company Manager Sentenced for Sale of Scrap FEMA Trailers

On February 14, 2013, Cindy Wade, manager of J-LU Limited Company, was
sentenced in an Arkansas state court to three years of probation and $1,470 in
fines and assessments, and ordered to pay restitution to the victims. The sentence
follows Wade’s December 19, 2012, plea of guilty to felony theft. The GSA OIG began
investigating Wade after the Arkansas Attorney General’s Office contacted agents with
concerns that scrap FEMA mobile homes were being sold as livable units. Subsequent
investigation revealed that Wade had purchased 15 mobile homes in three separate
GSA auction sales and represented to prospective buyers that the trailers could be
used as housing. Wade never disclosed that the mobile homes were not to be lived in
and failed to provide purchasers with required disclosure documents.


Three Sentenced for Role in Fleet Card Fraud Scheme

On November 13, 2012, Jose Alberto Avila was sentenced to ten months of
incarceration and three years of supervised release, and ordered to pay restitution in
the amount of $35,500. On December 7, 2012, Ray Fernando Bueno Jimenez was
sentenced to three years of supervised release and ordered to pay restitution in the
amount of $44,200. On January 10, 2013, Ivan Castillo was sentenced to three years
of supervised release and ordered to pay restitution in the amount of $27,711.75. These
three sentences followed the defendants’ guilty pleas to fraud and theft related to their
unauthorized use of four GSA fleet credit cards assigned to the U.S. Marines Recruiting
Station in Miami, Florida where Jiminez had access to the credit cards through his
position with the Marines. The GSA OIG and the Secret Service began the joint
investigation after finding multiple suspicious fuel purchases in the South Florida area.


Army Soldier Sentenced to 24 Months’ Confinement

On December 20, 2012, U.S. Army Sergeant Otis L. Webster was sentenced to a
reduction in rank, 24 months’ confinement, and a bad conduct discharge following
a court martial. Webster pled guilty to charges of larceny, wrongful appropriation,
conspiracy, and obstruction of justice following a GSA OIG investigation that
determined that Webster stole several GSA Fleet credit cards, which he and others
used to make over $20,000 in purchases. During the investigation Webster also
intimidated a witness who was cooperating with the government.




20                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
PROMOTING AND PROTECTING INTEGRITY




VA Volunteer Sentenced to Six Months of Incarceration

On June 25, 2012, Seth Garman was sentenced to six months of incarceration and one
year of supervisory release, and he was ordered to pay $1,187 in restitution and a $25
special assessment. Garman previously pled guilty to theft for his fraudulent use of a
GSA fleet credit card assigned to the U.S. Department of Veterans Affairs. The GSA
Fleet Loss Prevention Team initially alerted the GSA OIG of suspicious transactions
being made with a fleet credit card. Through surveillance, Garman was identified as the
person responsible. Garman gained access to the credit card through his position as a
volunteer driver for the VA hospital located in Lebanon, Pennsylvania. This investigation
was worked jointly with the VA OIG.


VA Employee Arrested for Fleet Card Fraud

On February 7, 2013, a VA employee was arrested for using two GSA fleet credit cards
to refuel his personal vehicles. The employee was charged with official misconduct and
theft under New Jersey law. The arrest resulted from an ongoing joint investigation with
the VA OIG and the Special Investigations Unit of the New Jersey Somerset County
Prosecutor’s Office, which began when the GSA Loss Prevention Team identified
suspicious transactions associated with the two credit cards involved.


WPA Recoveries
GSA is the custodian of the many works of art produced through the Works Progress
Administration (WPA). Since the United States commissioned countless pieces of art
during the New Deal era, many historical pieces have unlawfully made their way into the
marketplace and collectors’ hands. The OIG has continued to work closely with PBS
and the Fine Arts Program (FAP) Office to identify and recover lost and stolen American
cultural property produced at government expense during the New Deal era.

As a direct result of the cooperative efforts between the OIG and GSA’s Office of
the Chief Architect, Fine Arts Division (FAD), a total of six lost WPA pieces of artwork
were recovered during this reporting period. These pieces of American history are not
subject to public sale, but their comparative value totals approximately $53,000, and
the historic value of these pieces of American artwork is immeasurable. The FAD will be
conserving the pieces before placing them on loan to institutions across the country for
public display. Highlights of these efforts include:

On March 5, 2013, the WPA woodcut print, “Near Coney Island,” by Isami Doi, was
returned to the care and custody of the GSA FAP. This recovery began after the FAP
informed the GSA OIG that the artwork was being sold on eBay by an unidentified
person in Brooklyn, New York. The eBay listing included a photograph of the WPA
label affixed to the artwork. After being contacted by a GSA OIG agent, the possessor
agreed to discontinue the eBay sale and return the painting to GSA.




OCTOBER 1, 2012 – MARCH 31, 2013                                                      21
                                                      PROMOTING AND PROTECTING INTEGRITY




Agents Recover New Deal Era Paintings Offered for Auction on eBay by a
Private Art Collector

On February 6, 2013, GSA OIG special agents recovered two New Deal Era paintings
valued at a total of $13,000 – “The Railroad,” by artist Charles Townsend, and “A Train,”
a watercolor by artist Rolston Keeler. Both paintings have been returned to the FAP.
GSA OIG agents received information that the pieces were being offered for sale on
eBay. They notified eBay of the government’s ownership of the artworks and requested
eBay terminate the auction. Agents then contacted the seller to inform him of GSA’s
claim of title to the paintings. The seller agreed to cooperate in the investigation and
ultimately returned both pieces.


Public Works Art Project Mural Returned to Government Custody

On December 12, 2012, GSA OIG agents took custody of the Public Works of Art
Project painting “The Shovel” after the owner of Fine Art Conservation Laboratories
contacted agents to report that he had restored a WPA mural in 2010 for a retired
school janitor. Investigation revealed the mural was not from the WPA era, but had
actually been commissioned by the Public Works of Art Project. The retired school
janitor agreed to return the painting to the government through the lab owner.


Suspension and Debarment Initiative
GSA has a responsibility to ascertain whether the people or companies it does
business with are eligible to participate in federally-assisted programs and
procurements, and that they are not considered “excluded parties.” Excluded parties
are individuals and companies debarred, suspended, proposed for debarment, or
declared ineligible to receive contracts by a federal agency. The FAR authorizes an
agency to suspend or debar individuals or companies for the commission of any
offense indicating a lack of business integrity or business honesty that directly affects
the present responsibility of a government contractor or subcontractor. The OIG has
made it a priority to process and forward referrals to GSA, so GSA can ensure that the
government does not award contracts to individuals or companies that lack business
integrity or honesty.

During this reporting period, the OIG made 199 referrals for consideration of
suspension/debarment to the GSA Office of Acquisition Policy. GSA issued 165
suspension and debarment actions based on current and previous OIG referrals.




22                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
PROMOTING AND PROTECTING INTEGRITY




Integrity Awareness
The OIG presents Integrity Awareness Briefings nationwide to educate GSA employees
on their responsibilities for the prevention of fraud and abuse and to reinforce
employees’ roles in helping to ensure the integrity of Agency operations. This period,
we presented 23 briefings attended by 373 regional and Central Office employees.
These briefings explain the statutory mission of the OIG and the methods available for
reporting suspected instances of wrongdoing. In addition, through case studies, the
briefings make GSA employees aware of actual instances of fraud in GSA and other
federal agencies and thus help to prevent their recurrence. GSA employees are the first
line of defense against fraud, abuse, and mismanagement. They are a valuable source
of successful investigative information.


Hotline
The OIG Hotline provides an avenue for employees and other concerned citizens to
report suspected wrongdoing. Hotline posters located in GSA-controlled buildings
encourage employees to use the Hotline. We also use our FraudNet Hotline platform
to allow Internet reporting of suspected wrongdoing. During this reporting period,
we received 1,302 Hotline contacts. From these contacts, 104 Hotline cases were
initiated. In 58 of these cases, referrals were made to GSA program officials for review
and action as appropriate, 3 were referred to other federal agencies for follow-up,
17 were referred for OIG criminal/civil investigations or audits, and 29 did not warrant
further review.




OCTOBER 1, 2012 – MARCH 31, 2013                                                          23
                                                 FORENSIC AUDITING, EVALUATION, AND ANALYSIS




Forensic Auditing, Evaluation,
and Analysis
Forensic Auditing
Forensic Auditing conducts investigations and reviews of potentially fraudulent,
improper, wasteful and/or abusive activities related to GSA operations at the direction
of the IG or the Deputy IG. Proactive efforts are conducted through the use of
innovative auditing and investigative techniques in order to enhance the early detection
and subsequent assessment of potentially fraudulent activities. The office develops
evidence that meets the admissibility standards for prosecution in federal courts.

During this reporting period, Forensic Auditing operations led to the completion of 18
projects. The office continued prior period proactive work and initiated four proactive
data-mining examinations focusing on data analysis of potentially fraudulent activity,
which resulted in one referral to the Office of Investigations for further review. Forensic
Auditing concluded forensic analysis on 15 investigative cases for the Office of
Investigations and continues to provide data analysis and analytical provision on six
ongoing Office of Investigation cases.


Evaluation and Analysis
Evaluation and Analysis plans, directs, and coordinates the OIG internal evaluation and
analysis program which provides quality assurance through reviews of OIG Central
Office functions and OIG audit and investigative field offices. It carries out the OIG’s
Federal Managers’ Financial Integrity Act program and undertakes special projects as
required by the IG.

During this reporting period, Evaluations and Analysis completed an operational
assessment of an OIG component office and a records management project.
Evaluations and Analysis continues its efforts on the unified OIG Records
Management policy.




24                    OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
GOVERNMENT-WIDE POLICY ACTIVITIES




Government-Wide Policy Activities
We regularly provide advice and assistance on government-wide policy matters to
the Agency, as well as to other federal agencies and to committees of Congress. In
addition, as required by the IG Act of 1978, we review existing and proposed legislation
and regulations to determine their effect on the economy and efficiency of the
Agency’s programs and operations and on the prevention and detection of fraud and
mismanagement. Because of the central management role of the Agency in shaping
government-wide policies and programs, most of the legislation and regulations
reviewed invariably affect government-wide issues in areas such as procurement,
property management, travel, and government management and information
technology systems. To ensure the auditor’s independence when performing
subsequent audit work, we participate in Agency task forces, committees, and working
groups in an observer or advisor capacity.


Interagency Committees and Working Groups
We participated in a number of interagency committees and working groups that
address issues that cut across agency lines:

   >> Council of the Inspectors General on Integrity and Efficiency (CIGIE). The
      IG is a member of the Investigations Committee, Professional Development
      Committee, and Homeland Security Roundtable. The IG is also the liaison
      between CIGIE and the federal Chief Acquisition Officers Council.

      –– Federal Audit Executive Council Information Technology Committee.
         The Finance and Information Technology Audit Office participates in the
         Federal Audit Executive Council Information Technology Committee. This
         Committee provides a forum to share information and coordinate audits of
         significant IT issues to the OIG community and the federal government.
         The Committee also develops and recommends best practices to be used
         by OIGs in addressing IT issues.

      –– Leadership Development Subcommittee. OIG staff participated in the
         Leadership Development Subcommittee of the Professional Development
         Committee. The Subcommittee members reviewed CIGIE leadership program
         components and made recommendations about them to the Committee.




OCTOBER 1, 2012 – MARCH 31, 2013                                                     25
                                                            GOVERNMENT-WIDE POLICY ACTIVITIES




      >> Financial Fraud Enforcement Task Force’s Recovery Act, Procurement,
         and Grant Fraud Working Group: Public and Private Sector Outreach
         Committee. During this reporting period, the IG continued to reach out to both
         the public and private sectors as part of an effort to prevent, detect, and deter
         procurement fraud. This outreach has promoted communication, coordination,
         and cooperation among accountability professionals to foster effectiveness and
         efficiency of government oversight. Organizations that the IG made presentations
         to or had discussions with include the Federal Audit Executive Council,
         Department of Transportation Office of Inspector General, Boston Area Fraud
         Working Group, and the Mid Atlantic Intergovernmental Audit Forum, which
         is organized by the U.S. Government Accountability Office for accountability
         professionals from all levels of government.

        The OIG also continued to share information with federal, state, and local partners
        through a report containing criminal convictions and civil settlements as well as
        an interactive map linking state and local websites that contain information on
        individuals and companies that have been deemed non-responsible.

      >> Ohio Northern University College of Law. During this reporting period, the IG
         met with Ohio Northern University College of Law students from transitional
         democracies to discuss the roles and responsibilities of federal inspectors
         general. The IG discussed his role as an inspector general, the work of his office
         in audits and investigations, as well as the importance of independence for
         an inspector general. The students he spoke with have been working towards
         Masters of Laws in Democratic Governance and Rule of Law.

      >> Recovery Accountability and Transparency Board Working Group (Recovery
         Working Group). Comprised of all OIGs, the Recovery Working Group is
         responsible for overseeing the use of Recovery Act funds, providing advice, and
         making recommendations to the Recovery Funds Working Group Committee on
         how best to coordinate oversight efforts of federal, state, and local governments.
         As a member, the GSA OIG also participated in the American Recovery and
         Reinvestment Act Lessons Learned Survey this reporting period.

      >> Hurricane Sandy Working Group. On January 29, 2013 the President signed
         into law the Disaster Relief Appropriations Act of 2013 (P.L. 113-2), which provides
         fiscal year 2013 supplemental appropriations to respond to and recover from
         the damage caused by Hurricane Sandy. It provides funds to eighteen federal
         agencies (GSA received $7M) and directs their OIGs to oversee the use of these
         funds. As a member, the GSA OIG will work with the Recovery Board to develop
         and use information technology resources and oversight mechanisms to detect
         and remediate waste, fraud, and abuse as these appropriated funds are obligated
         and expended.




26                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
GOVERNMENT-WIDE POLICY ACTIVITIES




   >> Regional Procurement Fraud Working Group. The goal of the Regional
      Procurement Fraud Working Group is to detect, prevent, and prosecute
      procurement fraud. In addition to increasing contact, and improving
      communication, between agencies and the U.S. Attorneys’ Offices, this group
      has developed innovative methods to identify and prosecute fraud and develop
      collaborative cases among different government agencies. The Special Agent in
      Charge and the Regional Inspector General for Audits in our Heartland Region
      Office participate in bi-annual group meetings held in Kansas City, Missouri.
      The meetings are chaired by the Chief of the Fraud and Corruption Unit of the
      U.S. Attorney’s Office for the Western District of Missouri. Members of the group
      include representatives from the Department of Justice, the Regional Field Office
      of the FBI, and the region’s OIGs. Meetings are attended by attorneys, agents,
      and auditors from various federal government agencies.

   >> TeamMate Technical Support Group. As part of our mission to address some
      of the complex integration and security issues surrounding E-Gov and the use
      of information technology, the TeamMate Technical Support Group participates
      in the TeamMate Federal Users Group and the Commerce Clearing House
      TeamMate Users Group to discuss concerns and challenges facing TeamMate
      users. TeamMate is an automated audit workpaper management system that
      strengthens the audit process, increases the efficiency and effectiveness of our
      auditors and audits, and ultimately leads to more robust, quality audit products.


Legislation, Regulations, and Subpoenas
During this reporting period, the OIG reviewed numerous legislative matters and
proposed regulations. We also responded to requests from Congressional members
on behalf of their constituents. Additionally, we issued 30 subpoenas in support of our
audit, inspection, evaluative, and investigative work. The OIG also made substantive
comments on several proposed laws and regulations.




OCTOBER 1, 2012 – MARCH 31, 2013                                                         27
                                                            GOVERNMENT-WIDE POLICY ACTIVITIES




Intra-agency Task Forces, Committees, and Working Groups
The OIG provides advice and counsel to GSA while monitoring ongoing Agency
initiatives. Our representatives advise management of potential problems at the earliest
possible opportunity. Our purpose is to help ensure that appropriate management
controls are in place when installing new or modifying existing Agency systems, and to
offer possible solutions when addressing complex financial and operational issues.

Our participation with the Agency on task forces, committees, and working groups,
typically as nonvoting advisory members, allows us to contribute our expertise and
advice, while improving our familiarity with the Agency’s rapidly changing systems.
However, we are careful to ensure that the nature of our involvement does not preclude
our ability to independently audit Agency programs.

During this period we were involved with:

      >> The Multiple Award Schedule Working Group. The MAS Working Group issues
         guidance on negotiating contracts and discusses consistency in the application of
         FAS policy with contracting officers and acquisition staff. It serves as an effective
         communication channel for both broad policy and discrete issues related to
         specific contracts or audits. The group was established as a result of an August
         2001 OIG report on MAS contract pricing practices. It is primarily comprised of
         representatives from FAS and the OIG, along with ad hoc members from other
         branches of the Agency.




28                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Statistical Summary of
OIG Accomplishments
Reports Issued
The OIG issued 41 audit reports. The reports contained financial recommendations
totaling $827,327,001, including $824,527,958 in recommendations that funds be
put to better use and $2,799,043 in questioned costs. Due to GSA’s mission of
negotiating contracts for government-wide supplies and services, most of the savings
from recommendations that funds be put to better use would be applicable to other
federal agencies.


Management Decisions on Reports
Table 1 summarizes the status of the universe of reports requiring management
decisions during this period, as well as the status of those reports as of March 31,
2013. Table 1 does not include one implementation review that was issued during this
period because it was excluded from the management decision process. Table 1 also
does not include 3 reports excluded from the management decision process because
they pertain to ongoing investigations.


Table 1. Management Decisions on OIG Reports
                                                                                 REPORTS WITH              TOTAL
                                                              NUMBER                FINANCIAL          FINANCIAL
                                                           OF REPORTS       RECOMMENDATIONS*    RECOMMENDATIONS
For which no management decision had been made as of 10/01/2012
Less than six months old                                               18                 13        $166,177,391
Six or more months old                                                  0                  0                 $0
Reports issued this period                                             40                 31        $827,327,001
                                           TOTAL                       58                 44       $993,504,392
For which a management decision was made during the reporting period
Issued prior periods                                                   17                 12        $165,480,270
Issued current period                                                  16                 14        $258,415,625
                                           TOTAL                       33                 26       $423,895,895
For which no management decision had been made as of 03/31/2013
Less than six months old                                               24                 17        $568,911,376
Six or more months old                                                  0                  0                 $0
                                           TOTAL                       24                 17        $568,911,376

* These totals include audit reports issued with both recommendations that funds be put to better use and
  questioned costs.




OCTOBER 1, 2012 – MARCH 31, 2013                                                                             29
                                                           STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Management Decisions on Reports with
Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial
recommendations by category (funds be put to better use or questioned costs).


Table 2. Management Decisions on OIG Reports with Recommendations that
         Funds Be Put to Better Use

                                                                              NUMBER           FINANCIAL
                                                                           OF REPORTS   RECOMMENDATIONS
For which no management decision had been made as of 10/01/2012
Less than six months old                                                          11        $163,574,995
Six or more months old                                                             0                 $0
Reports issued this period                                                        27        $824,527,958
                                                                  TOTAL           38        $988,102,953
For which a management decision was made during the reporting period
Issued prior periods                                                              24        $421,214,883
Issued current period                                                              0                 $0
                                                                  TOTAL           24        $421,214,883
For which no management decision had been made as of 03/31/2013
Less than six months old                                                          13       $566,229,789
Six or more months old                                                             0                 $0
                                                                  TOTAL           13       $566,229,789



Management Decisions on OIG Reports with Questioned Costs
Table 3. Management Decisions on OIG Reports with Questioned Costs

                                                                              NUMBER          QUESTIONED
                                                                           OF REPORTS              COSTS
For which no management decision had been made as of 10/01/2012
Less than six months old                                                           6          $2,602,396
Six or more months old                                                             0                 $0
Reports issued this period                                                        17          $2,799,043
                                                                  TOTAL           23          $5,401,439
For which a management decision was made during the reporting period
Disallowed costs                                                                  10          $2,681,012
Cost not disallowed                                                                0                 $0
                                                                  TOTAL           10          $2,681,012
For which no management decision had been made as of 03/31/2013
Less than six months old                                                          12          $2,681,587
Six or more months old                                                             0                 $0
                                                                  TOTAL           12          $2,681,587




30                          OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Investigative Workload
The OIG opened 122 investigative cases and closed 150 cases during this period. In
addition, the OIG received and evaluated 42 complaints and allegations from sources
other than the Hotline that involved GSA employees and programs. Based upon our
analyses of these complaints and allegations, OIG investigations were not warranted.


Referrals
The OIG makes criminal referrals to the Department of Justice or other authorities for
prosecutive consideration, and civil referrals to the Civil Division of the Department
of Justice or to U.S. Attorneys for litigative consideration. The OIG also makes
administrative referrals to GSA officials on certain cases disclosing wrongdoing on
the part of GSA employees, contractors, or private individuals doing business with
the government.

During this period, the OIG also made 10 referrals to GSA officials for information
purposes only.


Actions on OIG Referrals
Based on these and prior referrals, 34 cases (46 subjects) were accepted for criminal
prosecution and 9 cases (16 subjects) were accepted for civil litigation. Criminal
cases originating from OIG referrals resulted in 33 indictments/informations and
27 successful prosecutions. OIG civil referrals resulted in 9 case settlements. Based
on OIG administrative referrals, GSA management debarred 59 contractors/individuals,
suspended 106 contractors/individuals, and took 13 personnel actions against
employees.


Table 4. Summary of OIG Referrals

TYPE OF REFERRAL                          CASES                        SUBJECTS

Criminal                                     46                           66
Civil                                        17                           41
Administrative                               49                           84
Suspension                                   28                           95
Debarment                                    36                          104
TOTAL                                      176                           390




OCTOBER 1, 2012 – MARCH 31, 2013                                                        31
                                                   STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Monetary Results
Table 5 presents the amounts of fines, penalties, settlements, recoveries, forfeitures,
judgments, and restitutions payable to the U.S. government as a result of criminal and
civil actions arising from OIG referrals. Table 6 presents the amount of administrative
recoveries and forfeitures as a result of investigative activities.


Table 5. Criminal and Civil Recoveries

                                                          CRIMINAL                         CIVIL

Fines and Penalties                                      $476,814
Settlements                                                                         $83,258,828
Recoveries
Forfeitures                                            $11,527,827
Seizures                                                    $1,670
Restitutions                                            $3,522,549
TOTAL                                                  $15,528,860                  $83,258,828



Table 6. Other Monetary Results


Administrative Recoveries                                                             $3,152,346
Forfeitures                                                                                   0
TOTAL                                                                                $3,152,346




32                         OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Appendices
34   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Appendix I –
Significant Audits from Prior Reports
Under the Agency audit management decision process, the GSA Offices of
Administrative Services (OAS) and the OCFO are responsible for tracking the
implementation of audit recommendations after a management decision has been
reached. These offices furnished the following status information.

Twelve audits identified in prior reports to the Congress have not yet been fully
implemented. These audits are being implemented in accordance with currently
established milestones.


Recovery Act Report – Limited Scope Audit of Task Order NP4700101050

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to determine if the NCR Client Support Center awarded
and administered Task Order NP4700101050 in accordance with federal regulations.
The report contained one recommendation, which has not been implemented.

The recommendation involves NCR management making a determination whether they
agree a reportable Anti-Deficiency Act violation exists. It is scheduled for completion by
May 15, 2013.


Recovery Act Report – Limited Scope Audit of Task Order NP4700101051

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to determine if the NCR Client Support Center awarded
and administered Task Order NP4700101051 in accordance with federal regulations.
The report contained one recommendation, which has not been implemented.

The recommendation involves NCR management making a determination whether they
agree a reportable Anti-Deficiency Act violation exists. It is scheduled for completion by
May 15, 2013.


Review of Blanket Purchase Agreement Number GS-06F-04123:
Kipper Tool Company

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to determine whether the Heartland Supply Operations
Center (HSOC) followed applicable laws, regulations, and guidance when awarding and
administering the Kipper Tool Company Blanket Purchase Agreement (BPA). The report
contained five recommendations; two have not been implemented.




OCTOBER 1, 2012 – MARCH 31, 2013                                                       35
                                         APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




The remaining two recommendations involve HSOC implementing controls to prevent
the assignment of a National Stock Number (NSN) without a technical description; and
conducting an internal review with the assistance of the Office of General Counsel to
determine whether administrative action is required against HSOC officials responsible
for the award and administration of the Kipper BPA. They are scheduled for completion
by May 15, 2013.


FY 2012 Office of Inspector General FISMA Audit of GSA’s Information
Technology Security Program

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to determine if GSA developed, documented, and
implemented a comprehensive agency-wide information security program that
addresses risks in the current information technology environment. The report
contained three recommendations; two have not been implemented.

The remaining two recommendations involve GSA conducting additional oversight of
patch management implementations to ensure that system officials are addressing
vulnerabilities on GSA systems in a timely manner; and creating guidance to assist
GSA system officials in securely developing applications for mobile platforms. They are
scheduled for completion by June 15, 2013.


Audit of GSA’s Transition from Lotus Notes to the Cloud

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to evaluate GSA’s efforts to transition from the Lotus
Notes environment to determine whether email and collaboration tools to cloud services
incorporated adequate performance measures and sufficient cost justifications and of
existing Lotus Notes applications to other platforms incorporated project management
controls necessary for retiring Lotus Notes in a timely manner. The report contained three
recommendations; one has not been implemented.

The remaining recommendation involves preparing an updated analysis/justification
regarding project savings, using actual figures, for the email and collaboration tools and
implement procedures for updating said documentation on a regular basis, as well as
when significant changes occur. It is scheduled for completion by November 15, 2013.


Recovery Act Report – Mariposa Land Port of Entry Expansion Project,
Construction Management Services for Phases 2-4

Period First Reported: April 1, 2012, to September 30, 2012

The objective of the audit was to determine if PBS is planning, awarding, and
administering contracts for major construction and modernization projects in
accordance with prescribed criteria and Recovery Act mandates. The report contained
two recommendations, which have not been implemented.




36                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




The recommendations involve reviewing the construction management task order labor
rates to ensure they reflect the negotiated discounts and recover any overpayments
related to the Mariposa project; and ensuring that PBS contracting officials verify all
pricing is accurate before awarding task orders based on schedule contractor labor
rates. They are scheduled for completion by May 15, 2013.


Audit of Personal Property Donation Program: New Jersey State Agency
for Surplus Property

Period First Reported: October 1, 2011, to March 31, 2012

The objectives of the audit were to determine if donated properties only go to eligible
recipients, and if these properties are accounted for and used by the New Jersey State
Agency for Surplus Property (NJ SASP). The report contained three recommendations;
two have not been implemented.

The remaining two recommendations involve enforcing proper recordkeeping standards
on the NJ SASP; and reviewing the NJ SASP in a more timely fashion, carefully
documenting these reviews, disseminating the results to the SASP, and following up on
outstanding issues. They are scheduled for completion by April 15, 2014.


Audit of the General Services Administration’s FY 2011 Financial Statements

Period First Reported: October 1, 2011, to March 31, 2012

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheet of the Federal Buildings Fund and the Acquisition Services
Fund, the related consolidated and individual statements of net cost, the changes in
net position, and the combined and individual statements of budgetary resources for
fiscal year 2011. The report contained 146 recommendations; three have not been
implemented.

The three remaining recommendations involve assessing the need to adjust or
implement automated application controls; reviewing the existing database and
operating system vulnerabilities; and reviewing management’s acceptance of risk for
database vulnerabilities posed to the organization on an individual and cumulative
basis. They are scheduled for completion by September 30, 2013.


Audit of GSA’s Improper Payments Performance

Period First Reported: October 1, 2011, to March 31, 2012

The objective of the audit was to determine if GSA is in compliance with the IPIA, as
amended by the IPERA, regarding the improper payments GSA reported in fiscal year
2011. The report contained six recommendations; two have not been implemented.




OCTOBER 1, 2012 – MARCH 31, 2013                                                       37
                                          APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




The remaining two recommendations involve complying with requirements by ensuring
the proper source of funds is used to reimburse the recapture audit contractor; and
issuing official policy providing guidance to Agency personnel regarding the reporting
of improper payments and implementation of the IPERA. They are scheduled for
completion by May 15, 2013.


Information Technology Solution Shop (ITSS) System Performance
and Functionality

Period First Reported: April 1, 2011, to September 30, 2011

The objective of the audit was to assess the performance and functionality of the
Information Technology Solution Shop system in meeting system users’ needs. The
report contained two recommendations; one has not been implemented.

The remaining recommendation involves designing a fully-functional procurement
system for the Assisted Acquisition Service that incorporates a standardized
procurement process. It is scheduled for completion by June 15, 2013.


GSA’s Fleet Monitoring of Alternative Fuel Vehicle Surcharge Payments

Period First Reported: April 1, 2011, to September 30, 2011

The objectives of the audit were to determine if GSA Fleet appropriately monitors
Alternative Fuel Vehicle (AFV) monthly surcharges collected from customer agencies;
and if material weaknesses are identified with GSA Fleet’s monitoring processes, what
actions should be taken. The report contained two recommendations; one has not
been implemented.

The remaining recommendation involves modifying AFV surcharge payment monitoring
practices to ensure compliance with federal regulations. It is scheduled for completion
by May 15, 2013.


Audit of the General Services Administration’s Fiscal Year 2010
Financial Statements

Period First Reported: October 1, 2010, to March 31, 2011

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheet of the Federal Buildings Fund and the Acquisition Services Fund,
the related consolidated and individual statements of net cost, the changes in net position
and the combined and individual statements of budgetary resources for fiscal year 2010.
The report contained 117 recommendations; three have not been implemented.

The remaining three recommendations involve the OCFO working with Agency officials
to adjust or implement automated application controls to ensure that the corresponding
feeder systems have the capability to capture all necessary data to report financial
transactions; reviewing GSA policies and procedures regarding the use of encryption
during the user authentication process; and implementing encryption for the OA Tool,
OA Billing, and RETA. They are scheduled for completion by May 15, 2013.




38                   OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX II – AUDIT REPORT REGISTER




Appendix II –
Audit Report Register
                                                                                                                                     FINANCIAL RECOMMENDATIONS
DATE OF           REPORT                                                                                                         FUNDS BE PUT             QUESTIONED
REPORT            NUMBER             TITLE                                                                                       TO BETTER USE        (UNSUPPORTED) COSTS
(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial recommendations related to these reports are not listed in
this Appendix.)
PBS INTERNAL AUDITS

10/24/12          A120174            Alert Report: Limited Scope Audit of Invalid Obligations and Contingency Funding for
                                     Recovery Act Projects

12/17/12          A110217            Follow-up Audit of GSA's Acquisition of Services for the International Trade Center at
                                     the Ronald Reagan Building: PBS's Oversight of Contract Requirements

02/21/13          A090184            Recovery Act Report - National Capital Region's Regional Office Building Projects
                                     Review of PBS's Limited Scope and Small Construction Projects Funded by the
                                     American Recovery and Reinvestment Act of 2009

03/27/13          A090172            Recovery Act Report - Funding for Modifications 50 UN Plaza Renovation Project Audit
                                     of PBS's Major Construction and Modernization Projects Funded by the American
                                     Recovery and Reinvestment Act of 2009

03/29/13          A090172            Audit of the Public Buildings Service's Compliance with Fee Limitations for Architect/
                                     Engineering Contracts
PBS CONTRACT AUDITS

10/17/12          A120148            Examination of Change Order Proposal: Siemens Industries, Inc., Subcontractor to
                                     Whiting-Turner/Walsh JV, Contract Number GS-11P-10-MKC-0025

11/20/12          A120158            Examination of a Change Order Proposal: Turner Construction Company, Contract
                                     Number GS-07P-11-HH-C-0003

01/15/13          A120179            Examination of a Claim: Braithwaite Construction Company, LLC, Contract Number
                                     GS-07P-99-HHD-0100

01/30/13          A120165            Examination of a Conversion Proposal: Skanska USA Building, Inc., Contract Number
                                     GS-04P-09-EX-C-0078

03/28/13          A130034            Examination of a Claim: Caddell Construction Co., Inc., Contract Number GS-05P-02-
                                     GBC-0089
FAS INTERNAL AUDITS

03/14/13          A120060            Audit of the Prepayment Audit Process, Transportation Audits Division, Federal
                                     Acquisition Service
FAS CONTRACT AUDITS

10/03/12          A120120            Preaward Examination of Multiple Award Schedule Contract Extension: Grant                                                     $44,598
                                     Thornton, LLP, Contract Number GS-23F-9763H

10/16/12          A120071            Preaward Examination of Multiple Award Schedule Contract Extension: ICF Z-Tech,                                               $14,580
                                     Inc., Contract Number GS-35F-0102M

11/02/12          A120066            Preaward Examination of Multiple Award Schedule Contract Extension: Life Fitness,
                                     Inc., Contract Number GS-07F-9380G

11/05/12          A110138            Preaward Examination of Multiple Award Schedule Contract Extension: United Parcel
                                     Service, Inc., Contract Number GS-23F-0282L

11/14/12          A120110            Preaward Examination of Multiple Award Schedule Contract Extension: BlueScope                                                $366,823
                                     Construction, Inc., Contract Number GS-07F-9665G

11/21/12          A120155            Preaward Examination of Multiple Award Schedule Contract Extension: Avion
                                     Solutions, Inc., Contract Number GS-00F-0082N




OCTOBER 1, 2012 – MARCH 31, 2013                                                                                              39
                                                                                                           APPENDIX II – AUDIT REPORT REGISTER




                                                                                                                FINANCIAL RECOMMENDATIONS
DATE OF    REPORT                                                                                            FUNDS BE PUT        QUESTIONED
REPORT     NUMBER    TITLE                                                                                   TO BETTER USE   (UNSUPPORTED) COSTS
12/06/12   A120078   Preaward Examination of Multiple Award Schedule Contract Extension: Computer
                     Sciences Corporation, Contract Number GS-35F-4381G

12/06/12   A110147   Preaward Examination of Multiple Award Schedule Contract Extension: Xerox
                     Corporation, Contract Number GS-25F-0062L

12/14/12   A120108   Preaward Examination of Multiple Award Schedule Contract Extension: Battelle
                     Memorial Institute, Contract Number GS-23F-8167H

12/20/12   A120107   Preaward Examination of Multiple Award Schedule Contract: Hewlett-Packard                                          $28,563
                     Company, Solicitation Number FCIS-JB-980001-B

01/08/13   A120100   Preaward Examination of Multiple Award Schedule Contract Extension: Alion Science
                     and Technology Corporation, Contract Number GS-10F-0282M

01/09/13   A120159   Preaward Examination of Multiple Award Schedule Contract Extension: Knoll, Inc.,
                     Contract Number GS-28F-8029H

01/18/13   A120093   Preaward Examination of Multiple Award Schedule Contract Extension: Reed Elsevier,                                 $20,742
                     Inc., Contract Number GS-02F-0048M

01/24/13   A120150   Preaward Examination of Multiple Award Schedule Contract Extension: Grant Thornton                                     $3,848
                     LLP, Contract Number GS-23F-8196H

02/06/13   A120097   Preaward Examination of Multiple Award Schedule Contract Extension: Lyme                                           $19,022
                     Computer Systems, Inc., Contract Number GS-35F-4754G

02/08/13   A120177   Preaward Examination of Multiple Award Schedule Contract Extension: ASI                                            $13,071
                     Government, Inc., Contract Number GS-10F-0308N

02/13/13   A120133   Limited Scope Postaward Examination of Multiple Award Schedule Contract: The MIL                                  $294,125
                     Corporation, Contract Number GS-35F-4670G for the Period May 30, 2007 Through
                     March 31, 2012

02/21/13   A110181   Preaward Examination of Multiple Award Schedule Contract Extension: Softchoice
                     Corporation, Contract Number GS-35F-0196M

02/28/13   A120095   Preaward Examination of Multiple Award Schedule Contract Extension: Military                                       $87,379
                     Personnel Services Corporation, Contract Number GS-10F-0234M

03/01/13   A120098   Preaward Examination of Multiple Award Schedule Contract Extension: Dynamics                                           $8,973
                     Research Corporation, Contract Number GS-35F-4775G

03/05/13   A120178   Preaward Examination of Multiple Award Schedule Contract Extension: VT Aepco, Inc.,                                $76,352
                     Contract Number GS-23F-0191N

03/14/13   A130036   Preaward Examination of Multiple Award Schedule Contract Extension: The Centech                                    $57,879
                     Group, Inc., Contract Number GS-35F-5440H

03/19/13   A100161   Limited Scope Postaward Examination of Multiple Award Schedule Contract:                                        $1,474,441
                     Smartronix, Inc., Contract Number GS-35F-0362J

03/20/13   A120147   Preaward Examination of Multiple Award Schedule Contract Extension: Harris                                         $44,256
                     Corporation, RF Communications Division, Contract Number GS-35F-0163N

03/21/13   A120109   Preaward Examination of Multiple Award Schedule Contract Extension: ICF Macro,
                     Inc., Contract Number GS-23F-9777H

03/28/13   A120142   Preaward Examination of Multiple Award Schedule Contract Extension: Science                                        $97,020
                     Applications International Corporation, Contract Number GS-23F-8006H

03/29/13   A120127   Preaward Examination of Multiple Award Schedule Contract Extension: General                                       $147,371
                     Dynamics Information Technology, Inc., Contract Number GS-23F-8049H




                          40                            OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX II – AUDIT REPORT REGISTER




                                                                                                                     FINANCIAL RECOMMENDATIONS
DATE OF        REPORT                                                                                            FUNDS BE PUT         QUESTIONED
REPORT         NUMBER        TITLE                                                                               TO BETTER USE    (UNSUPPORTED) COSTS
OTHER INTERNAL AUDITS

12/20/12       A120101       Audit of General Services Administration's Fiscal Year 2012 Financial Statements

12/20/12       A120154       Implementation Review of Corrective Action Plan, Review of the GSA OCAO's
                             Procurement Management Review Process, Report Number A080121/O/A/F09012

03/14/13       A130014       Audit of the General Services Administration's FY 2012 Improper Payments
                             Performance




OCTOBER 1, 2012 – MARCH 31, 2013                                                                               41
                      APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




Appendix III –
OIG Reports over 12 Months Old,
Final Agency Action Pending
Public Law 104-106 requires the head of a federal agency to complete final action on
each management decision required with regard to a recommendation in an IG’s report
within 12 months after the date of the report. If the head of the Agency fails to complete
final action within the 12-month period, the Inspector General shall identify the matter in
the semiannual report until final action is complete.

In GSA, the OAS and the OCFO are responsible for monitoring and tracking open
recommendations. While we continue to assist the Agency in resolving these open
items, various litigative proceedings, continuing negotiations of contract proposals, and
corrective actions needed to undertake complex and phased-in implementing actions
often delay timely completion of the final action.

The OAS provided the following list of reports with action items open beyond
12 months:
DATE OF     REPORT
REPORT      NUMBER        TITLE
12/12/08    A080177       Preaward Review of Multiple Award Schedule Contract Extension: Tecolote Research,
                          Incorporated, Contract Number GS-35F-5115H

12/29/08    A090042       Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer Sciences
                          Corporation, Contract Number GS-00T-99-ALD-204

01/20/09    A080136       Preaward Review of Multiple Award Schedule Contract Extension: Dynamic Decisions, Inc.,
                          Contract Number GS-35F-5879H

04/27/09    A080210       Preaward Review of Multiple Award Schedule Contract Extension: Immix Technology, Inc.,
                          Contract Number GS-35F-033J

08/19/09    A090106       Preaward Examination of Multiple Award Schedule Contract Extension: Perot Systems
                          Government Services, Inc., Contract Number GS-00F-0049M

08/21/09    A080030       Preaward Review of Multiple Award Schedule: Hewlett-Packard Company, Contract Number
                          GS-35F-4663G

08/21/09    A090090       Preaward Examination of Multiple Award Schedule Contract Extension: Ezenia!, Inc., Contract
                          Number GS-35F-0475P

09/03/09    A090089       Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet Corporation,
                          Less Carpets Division, Contract Number GS-27F-0031N

09/04/09    A090254       Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and Engineering
                          Services on the new St. Elizabeth's West Campus of the U.S. Department of Homeland Security
                          Headquarters and Consolidated National Operations Center: Greenhorne & O’mara, Inc.,
                          Solicitation Number GS-11P-08-MKC-0080

09/09/09    A090232       Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and Engineering
                          Services on the new St. Elizabeth's West Campus of the U.S. Department of Homeland Security
                          Headquarters and Consolidated National Operations Center in Washington, D.C.: Haley &
                          Aldrich, Solicitation Number GS-11P-08-MKC-0079

09/10/09    A090234       Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs Portion of
                          Subcontractor Proposal: HDR Architecture, Inc., Solicitation Number GS-11P-08-MKC-0079

11/09/09    A090202       Preaward Review of Multiple Award Schedule Contract Extension: Computech, Inc., Contract
                          Number GS-35F-0108K




42                      OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF      REPORT
REPORT       NUMBER       TITLE
11/17/09     A080144      Preaward Review of Multiple Award Schedule Contract Proposal: BMC Software, Inc.,
                          Solicitation Number FCIS-JB-980001-B

12/10/09     A090159      Preaward Examination of Multiple Award Schedule Contract Extension: RCF Information
                          Systems, Inc., Contract Number GS-35F-0613J

06/24/10     A090108      Preaward Examination of Multiple Award Schedule Contract Extension: Integrated Data
                          Services, Inc., Contract Number GS-35F-0372J

07/06/10     A080070      Preaward Review of Multiple Award Schedule Contract Extension: Accenture, LLP, Contract
                          Number GS-35F-4692G

08/16/10     A090130      Limited Review of Multiple Award Schedule for the Period January 8, 2002, to November 7,
                          2005: Cort Business Furniture, Contract Number GS-28F-7018G

08/24/10     A090140      Postaward Review of Multiple Award Schedule Contract: Systems Research and Applications
                          Corporation, Contract Number GS-35F-0735J

09/15/10     A080124      Limited Scope Postaward Review for the Period July 1, 2003, to December 29, 2008: ASAP
                          Software Express, Inc., Contract Number GS-35F-4027D

09/16/10     A100148      Examination of a Change Order Proposal: Alutiiq International Solutions, LLC, Contract Number
                          GS-08P-08-JFC-0005

10/07/10     A100117      Preaward Examination of Multiple Award Contract Extension: Dun & Bradstreet, Inc., Contract
                          Number GS-22F-9614D

10/12/10     A100156      Examination of a Claim: Acousti Engineering Company of Florida, Subcontractor to Dick
                          Corporation, Contract Number GS-04P-01-EXC-0044

10/27/10     A090133      Limited Scope Postaward Review of Multiple Award Contract for the Period July 29, 2002, to
                          September 9, 2008: SeaArk Marine, Inc., Contract Number GS-07F-0012J

11/02/10     A100167      Preaward Examination of Multiple Award Schedule Contract Extension: Affordable Interior
                          Systems, Inc., Contract Number GS-29F-0006K

11/16/10     A080057      Preaward Examination of Multiple Award Schedule Contract Extension: The Sherwin-Williams
                          Company, Contract Number GS-10F-0004J

11/22/10     A100195      Preaward Review of Multiple Award Schedule Contract Extension: Knight Protective Service,
                          Inc., Contract Number GS-35F-0266K

11/22/10     A100195      Preaward Examination of Multiple Award Schedule Contract Extension: BTAS, Inc., Contract
                          Number GS-35F-0546J

11/24/10     A090192      Preaward Review of Multiple Award Schedule Contract Extension: SHI International Corporation,
                          Contract Number GS-35F-0111K

11/24/10     A100193      Postaward Audit of Multiple Award Schedule Contract: The Stratix Corporation, Contract
                          Number GS-35F-080SR

12/14/10     A100201      Preaward Examination of Multiple Award Schedule Contract Extension: Government-Buys,
                          Incorporated, Contract Number GS-35F-0122S

12/27/10     A100172      Preaward Examination of Multiple Award Schedule Contract Extension: New England Woodcraft,
                          Inc., Contract Number GS-27F-0005L

01/27/11     A100075      Preaward Review of Multiple Award Schedule Contract Extension: Cort Business Services
                          Corporation, Contract Number GS-28F-7018G

01/27/11     A100213      Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell Construction
                          Company Incorporated, Contract Number GS-07P-05-UEC-3003

01/31/11     A100178      Examination of Construction Management Services Contract: Bovis Lend Lease LMB, Inc.,
                          Contractor Number GS-02P-04-DTC-0048

02/02/11     A100171      Examination of a Claim: Layton Construction Company, Inc., Contract Number GS-08P-07-
                          JFC-0016




OCTOBER 1, 2012 – MARCH 31, 2013                                                                                       43
                     APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF    REPORT
REPORT     NUMBER        TITLE
02/24/11   A100003       Preaward Review of Multiple Award Schedule Contract Extension: McLane Advanced
                         Technologies, LLC, Contract Number GS-35F-0901P

03/10/11   A100062       Preaward Review of Multiple Award Schedule Contract Extension: Carasoft Technology
                         Corporation, Contract Number GS-35F-0131R

03/16/11   A100168       Preaward Review of Multiple Award Schedule Contract Extension: Johnson Controls, Inc.,
                         Contract Number GS-07F-7823C

03/29/11   A100114       Preaward Review of Multiple Award Schedule Contract Extension: Ahura Scientific, Inc.,
                         Contract Number GS-07F-6099R

05/10/11   A110073       Preaward Examination of Multiple Award Schedule Contract Extension: PPS Infotech, LLC,
                         Contract Number GS-35F-0372L

05/12/11   A100221       Preaward Examination of Multiple Award Schedule Contract Extension: Mainline Information
                         Systems, Inc., Contract Number GS-35F-0216L

05/12/11   A110044       Preaward Examination of Multiple Award Schedule Contract Extension: Vaisala, Inc., Contract
                         Number GS-25F-6029D

05/16/11   A110063       Postaward Examination of Multiple Award Schedule for the Period January 1, 2008, to
                         December 31, 2010: IntelliDyne, LLC, Contract Number GS-35F-0554K

05/17/11   A100183       Examination of a Claim: Moshe Safdie and Associates, Inc., Contract Number GS-01P-99-
                         BWC-0016

06/01/11   A110087       Preaward Examination of Multiple Award Contract Extension: National Interest Security
                         Company, Contract Number GS-25F-0032L

06/01/11   A110070       Examination of a Claim: Bergelectric Corporation, Subcontractor to Caddell Construction Co.,
                         Inc., Contract Number GS-07P-05-UEC-3003

06/07/11   A090112       Postaward Review of Multiple Award Schedule Contract for the Period March 20, 1998, to April
                         30, 2008: ITS Services, Inc., Contract Number GS-35F-5518H

06/10/11   A110115       Preaward Examination of Multiple Award Schedule Contract Extension: Pacific Star
                         Communications, Inc., Contract Number GS-35F-0031L

06/13/11   A110108       Preaward Review of Multiple Award Schedule Contract Extension: Protective Products
                         Enterprises, Contract Number GS-07F-9029D

06/30/11   A090045       Limited Scope Postaward Review of Multiple Award Schedule Contract for the Period January,
                         2005, to July 31, 2007: C-Tech Industries, Inc., Contract Number GS-07F-0496T

07/06/11   A110098       Examination of a Claim: KenMor Electric Company, LP, Subcontractor to W.G. Yates & Sons
                         Construction Company, Contract Number GS-07P-05-URC-5007

07/07/11   A100140       Preaward Review of Multiple Award Schedule Contract Extension: Veterans Imaging Products,
                         Inc., Contract Number GS-14F-0005L

07/08/11   A110132       Preaward Examination of Architect-Engineer Proposal: R.A. Heintges & Associates,
                         Subcontractor to Smith-Miller & Hawkinson Architects, LLP, Solicitation Number GS-11P-10-
                         MKC-0050

07/14/11   A110140       Preaward Examination on Architect/Engineering Proposal: Lehman Smith McLeish, PLLC,
                         Subcontractor to Smith-Miller & Hawkinson Architects, LLP, Solicitation Number GS-11P-10-
                         MKC-0050

07/22/11   A080188       Review of a Claim: Dynalectric Company, Subcontractor to Dick Corporation, Contract Number
                         GS-04P-01-EXC-0044

07/25/11   A100174       Examination of a Claim: Leon D. Dematteis Construction Corporation, Contract Number GS-
                         02P-04-DTC-0032

07/27/11   A100170       Examination of a Claim: Caddell Construction Company, Incorporated, Contract Number GS-
                         07P-05-UEC-3003

07/27/11   A110109       Preaward Examination of Multiple Award Contract Extension: Security Consultants Group
                         Incorporated, Contract Number GS-07F-0267L




44                     OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF      REPORT
REPORT       NUMBER       TITLE
07/28/11     A110088      Postaward Examination of Multiple Award Schedule for the Period January 1, 2009, to
                          December 31, 2010: Global Protection USA, Inc., Contract Number GS-07F-6028P

08/03/11     A100119      Preaward Review of Multiple Award Schedule Contract Extension: Noble Sales Co., Contract
                          Number GS-06F-0032K

08/03/11     A100182      Preaward Examination of O&M Services Contract: Security Construction Services, Inc.,
                          Solicitation Number GS-01P-10-BWC-0026

08/04/11     A110133      Preaward Examination of Architect Engineer Proposal: Arup USA, Inc., Subcontractor to Smith-
                          Miller & Hawkinson Architects, LLP, Solicitation Number GS-11P-10-MKC-005

08/10/11     A110102      Examination of a Claim: W.G. Yates & Sons Construction Company, Contract Number GS-07P-
                          05-URC-5007

08/15/11     A110180      Examination of Architect and Engineering Services Contract: RTKL Associates, Inc., Contract
                          Number GS-11P-11-MKC-0045

08/17/11     A110195      Report on Independent Audit (Adequacy Review) Initial Disclosure Statement: J.E. Dunn
                          Construction Co.-Midwest, Solicitation Number GS-06P-08-GZ0-011

08/19/11     A110111      Preaward Examination of Multiple Award Schedule Contract Extension: Thermo Electron North
                          America, LLC, Contract Number GS-24F-0026L

08/22/11     A090196      Review of Construction Management Service Contract, Options Number 3, 5, and 6: Bovis Lend
                          Lease, LMP, Inc., Contract Number GS-02P-04-DTC-0028

08/25/11     A110136      Preaward Examination of Multiple Award Schedule Contract Extension: Konica Minolta Business
                          Solution U.S.A. Inc., Contract Number GS-25F-0030M

09/01/11     A110182      Examination of a Termination Settlement Proposal: Hensel Phelps Construction Company,
                          Contract Number GS-04P-10-BVC-0065

09/08/11     A110021      Examination of a Claim: Myrex Industries, Subcontractor to Caddell Construction Company,
                          Incorporated, Contract Number GS-07P-05-UEC-3003

09/09/11     A110067      Preaward Examination of Multiple Award Schedule Contract Extension: Clifton Gunderson, LLP,
                          Contract Number GS-23F-0135L

09/12/11     A110146      Examination of Conversion Proposal: White Construction Company, Contract Number GS-07P-
                          06-UEC-0059

09/14/11     A110122      Preaward Examination of Multiple Award Schedule Contract: Agilent Technologies,
                          Incorporated, Contract Number GS-26F-5944A

09/15/11     A110174      Postaward Examination of Multiple Award Schedule for the Period March 5, 2010, to July 31,
                          2011: Protective Products Enterprises, Contract Number GS-07F-9029D

09/28/11     A100108      Review of Construction Management Services Contract: Bovis Lend Lease, LMB, Inc., Contract
                          Number GS-02P-07-DTC-0009

10/13/11     A100210      Preaward Examination of Multiple Award Schedule Contract Extension: Labat-Anderson, Inc.,
                          Contract Number GS-25F-0028L

10/18/11     A100215      Examination of Construction Management Services Contract: Bovis Lend Lease, LMB, Inc.,
                          Contract Number GS-02P-07-DTC-0009

11/15/11     A110197      Preaward Examination of Multiple Award Schedule Contract Extension: KDH Defense Systems,
                          Inc., Contract Number GS-07F-0249T

11/17/11     A100217      Preaward Examination of Multiple Award Schedule Contract: CliniComp International, Inc.,
                          Contract Number GS-35F-0475L

12/07/11     A110176      Preaward Examination of Multiple Award Schedule Contract Extension: Fontaine Trailer
                          Company, Incorporated, Contract Number GS-30F-0018T

12/19/11     A110153      Examination of a Claim: Letsos Company, Subcontractor to W.G. Yates & Sons Construction
                          Company, Contract Number GS-07P-05-URC-5007




OCTOBER 1, 2012 – MARCH 31, 2013                                                                                       45
                        APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF       REPORT
REPORT        NUMBER        TITLE
12/20/11      A110155       Preaward Examination of Multiple Award Schedule Contract Extension: Terrapin Systems, LLC,
                            Contract Number GS-35F-0562L

12/22/11      A110178       Preaward Review of Multiple Award Schedule Contract Extension: Sharp Electronics
                            Corporation, Contract Number GS-25F-0037M

12/27/11      A110191       Preaward Examination of Multiple Award Schedule Contract Extension: Paradigm Technologies,
                            Inc., Contract Number GS-23F-0023T

12/27/11      A110198       Preaward Examination of Multiple Award Schedule Contract Extension: Scott Technologies
                            Incorporated, Contract Number GS-07F-9563G

01/19/12      A110152       Preaward Examination of Multiple Award Schedule Contract Extension: Technology Associates
                            International Corporation, Contract Number GS-35F-0474L

01/23/12      A110186       Preaward Examination of Multiple Award Schedule Contract Extension: BRSI, L.P., Contract
                            Number GS-23F-0186L

01/31/12      A110177       Examination of a Claim: Way Engineering Ltd., Subcontractor to W.G. Yates & Sons Construction
                            Company, Contract Number GS-07P-05-URC-5007

02/03/12      A120065       Examination of a Claim: Bergelectric Corporation, Subcontractor to Caddell Construction
                            Company, Inc., Contract Number GS-07P-05-UEC-3003

02/08/12      A120075       Examination of a Claim: Enola Contracting Services, Inc., Contract Number GS-04P-07-
                            EXC-0167

02/22/12      A110089       Preaward Examination of Multiple Award Schedule Contract Extension: Quality Software
                            Services, Inc., Contract Number GS-35F-0308L

03/01/12      A110097       Preaward Examination of Multiple Award Schedule Contract Extension: Dell Marketing, L.P.,
                            Contract Number GS-35F-4076D

03/02/12      A120021       Preaward Examination of Multiple Award Schedule Contract Extension: Presidio Network
                            Solutions, Inc., Contract Number GS-35F-4554G

03/07/12      A110200       Preaward Examination of Multiple Award Schedule Contract Extension: Deco, Inc., Contract
                            Number GS-07F-0103M

03/16/12      A100191       Postaward Examination of Multiple Award Schedule Contract for the Period January 1, 2004, to
                            June 30, 2010: Ergogenesis, LLC, Contract Number GS-29F-0119C

03/27/12      A120074       Preaward Examination of Multiple Award Schedule Contract: Kimball International, Inc.,
                            Contract Number GS-29F-0177G

03/28/12      A120070       Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell Construction
                            Co., Inc., Contract Number GS-07P-05-UEC-3003


DATE OF       REPORT                                                                                    PROJECTED FINAL
REPORT        NUMBER        TITLE                                                                       ACTION DATE
INTERNAL AUDITS

03/31/11      A110072       Review of the Federal Acquisition Service’s National Customer Service       07/15/2013
                            Center

11/10/11      A110103       Audit of the General Services Administration’s Fiscal Year 2011 Financial   09/30/2013
                            Statements

03/29/12      A120054       FY 2012 Office of Inspector General Information Technology Security Audit 05/15/2013
                            of the Data.gov Terremark System

03/30/12      A110117       Audit of Personal Property Donation Program: New Jersey State Agency       04/15/2014
                            for Surplus Property, Federal Acquisition Service, Northeast and Caribbean
                            Region




46                        OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX IV – GOVERNMENT CONTRACTOR SIGNIFICANT REPORT FINDINGS




Appendix IV –
Government Contractor Significant
Report Findings
The National Defense Authorization Act for FY 2008, P. L. 110-181, requires each IG
appointed under the IG Act of 1978 to submit an annex on final, completed contract
audit reports issued to the contracting activity as part of its Semiannual Report to the
Congress. The annex addresses significant audit findings – unsupported, questioned, or
disallowed costs in excess of $10 million – or other significant contracting issues. During
this reporting period, there were no audit reports that met these requirements.




OCTOBER 1, 2012 – MARCH 31, 2013                                                             47
                                       APPENDIX V – OIG REPORTS WITHOUT MANAGEMENT DECISION




Appendix V –
OIG Reports Without
Management Decision
Section 5(a)(10) of the IG Act as amended, requires a summary of each report issued
before the commencement of the reporting period for which no management decision
has been made by the end of the reporting period. GSA has a system in place to track
reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by the OIG and agreed to by management are addressed as
efficiently and expeditiously as possible. This period there is one OIG report that meets
this requirement.


Preaward Examination of MAS Contract Extension: Spectrum Systems, Inc.,
Contract Number GS-35F-5192G, dated August 17, 2012

This audit was performed to determine whether Spectrum Systems submitted current,
accurate, and complete CSP information; maintained sales monitoring and billing systems
that ensure proper administration of the price reduction provisions and billing terms of
the contract; and adequately accumulated and reported schedule sales for IFF payment
purposes. The report concluded that Spectrum Systems’ CSP is current, but not accurate
and complete; current and proposed Price Reductions clauses do not provide adequate
protection for the government; GSA Schedule customers were improperly billed, resulting
in overcharges; and, Spectrum does not have an adequate system for classifying sales
for IFF purposes.

After multiple unsuccessful attempts to resolve the contracting officer’s disagreement
with our report findings, the OIG is working with higher-level agency officials to resolve
this issue.




48                    OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX VI – PEER REVIEW RESULTS




Appendix VI – Peer Review Results
The Dodd-Frank Wall Street Reform Act requires each IG to submit an appendix
containing: the results of any peer review conducted by another Office of Inspector
General during the reporting period or, if no peer review was conducted, a statement
identifying the date of the last peer review conducted; a list of any outstanding
recommendations from any peer review conducted by another OIG that have not been
fully implemented, the status of the recommendation, and an explanation why the
recommendation is not complete; and a list of any peer reviews conducted by the OIG
of another Office of Inspector General during the reporting period, including a list of any
outstanding recommendations made from any previous peer review that have not been
fully implemented.

In FY 2012, the Office of Audits underwent a peer review by the Department of Justice.
On December 20, 2012, the GSA OIG received a peer review rating of “pass.” The peer
review team found that the GSA OIG’s system of quality control is suitably designed
and complied with to provide it with reasonable assurance of performing and reporting
in conformity with the quality standards established by CIGIE in all material respects.
No outstanding recommendations exist from any previous peer review conducted by
another Office of Inspector General.

The Office of Audits did not conduct any peer reviews of another OIG during this
reporting period. As such, no outstanding recommendations exist from previous
peer reviews that have not been fully implemented.

The Office of Investigations did not conduct any peer reviews during this reporting
period. The Office of Investigations’ last peer review was conducted in 2010 by
the Department of Energy OIG, which resulted in an opinion that the Office of
Investigations’ system of internal safeguards and management procedures were
in compliance with the quality standards established by CIGIE and applicable U.S.
Attorney General guidelines.




OCTOBER 1, 2012 – MARCH 31, 2013                                                        49
                                                                          APPENDIX VII – REPORTING REQUIREMENTS




Appendix VII –
Reporting Requirements
The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages where they are addressed. The
information requested by the Congress in Senate Report No. 96-829 relative to the 1980
Supplemental Appropriations and Rescission Bill, the National Defense Authorization Act,
and the Dodd-Frank Wall Street Reform Act are also cross-referenced to the appropriate
page of the report.

REQUIREMENT                                                                                                       PAGE

INSPECTOR GENERAL ACT

Section 4(a)(2) – Review of Legislation and Regulations                                                            27
Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies                                                  3–14
Section 5(a)(2) – Recommendations with Respect to Significant Problems, Abuses, and Deficiencies                  3–14
Section 5(a)(3) – Prior Recommendations Not Yet Implemented                                                        35
Section 5(a)(4) – Matters Referred to Prosecutive Authorities                                                      31
Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where Information Was Refused                                 none
Section 5(a)(6) – List of OIG Reports                                                                              39
Section 5(a)(7) – Summary of Each Particularly Significant Report                                                 3–14
Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs                                   30
Section 5(a)(9) – Statistical Tables on Management Decisions on Recommendations That Funds Be Put to Better Use    30
Section 5(a)(10) – Summary of OIG Reports Issued Before the Commencement of the                                    48
Reporting Period for Which No Management Decision Has Been Made
Section 5(a)(11) – Description and Explanation for Any Significant Revised Management Decision                    none
Section 5(a)(12) – Information on Any Significant Management Decisions                                            none
with Which the Inspector General Disagrees
SENATE REPORT NO. 96-829

Resolution of Audits                                                                                               29
NATIONAL DEFENSE AUTHORIZATION ACTS

Public Law 104-106, 5 U.S.C. app. 3, § 5 note                                                                      42
Public Law 110-181                                                                                                  47
DODD-FRANK WALL STREET REFORM AND CONSUMER PROTECTION ACT

Peer Review Results                                                                                                49




50                            OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX VIII – OIG OFFICES AND KEY OFFICIALS




Appendix VIII –
OIG Offices and Key Officials
OFFICE OF THE INSPECTOR GENERAL

Inspector General                                        Brian D. Miller (J)           (202) 501-0450
Deputy Inspector General                                 Robert C. Erickson (JD)       (202) 501-0450
Special Assistant for Communications                     Sarah Breen                   (202) 219-1351
Congressional Affairs Liaison                            Jennifer Riedinger            (202) 501-4634
OFFICE OF COUNSEL TO THE INSPECTOR GENERAL

Counsel to the IG                                        Richard Levi (JC)             (202) 501-1932
OFFICE OF FORENSIC AUDITING, EVALUATION, AND ANALYSIS

Director                                                 Patricia D. Sheehan (JE)      (202) 273-4989
OFFICE OF AUDITS

Assistant IG for Auditing                                Theodore R. Stehney (JA)      (202) 501-0374
Principal Deputy Assistant IG for Auditing               Vacant (JAD)                  (202) 501-0374
Chief of Staff                                           Peter J. Coniglio (JA)        (202) 501-0468
Director, Audit Planning, Policy, and Operations Staff   Lisa L. Blanchard (JAO)       (202) 273-7271
Director, Administration and Data Systems Staff          Thomas P. Short (JAS)         (202) 501-1366
Director, Office of Special Projects                     Paul J. Malatino (JA-P)       (202) 208-0021
DEPUTY ASSISTANT INSPECTORS GENERAL FOR AUDITING

Acquisition Programs Audit Office                        James P. Hayes (JA)           (202) 273-7321
Real Property Audit Office                               Rolando N. Goco (JA)          (202) 501-2322
Finance and Information Technology Audit Office          Carolyn Presley-Doss (JA-F)   (202) 357-3620
REGIONAL INSPECTORS GENERAL FOR AUDITING / PROGRAM DIRECTORS

Northeast and Caribbean Region Audit Office              Steven D. Jurysta (JA-2)      (212) 264-8620
Mid-Atlantic Region Audit Office                         James M. Corcoran (JA-3)      (215) 446-4840
Southeast Sunbelt Region Audit Office                    Nicholas V. Painter (JA-4)    (404) 331-5125
Great Lakes Region Audit Office                          Adam R. Gooch (JA-5)          (312) 353-7781
The Heartland Region Audit Office                        John F. Walsh (JA-6)          (816) 926-7052
Greater Southwest Region Audit Office                    Paula N. Denman (JA-7)        (817) 978-2571
Pacific Rim Region Audit Office                          Hilda M. Garcia (JA-9)        (415) 522-2744
Program Director for Real Property                       Marisa A. Roinstead (JA-R)    (202) 273-7241
Program Director for Acquisition Programs                Barbara Bouldin (JA-A)        (703) 603-0189




OCTOBER 1, 2012 – MARCH 31, 2013                                                                  51
                                                               APPENDIX VIII – OIG OFFICES AND KEY OFFICIALS




OFFICE OF INVESTIGATIONS

Assistant IG for Investigations                        Geoffrey Cherrington (JI)               (202) 501-1397
Deputy Assistant IG for Investigations                 Lee Quintyne (JID)                      (202) 501-1397
Director, Investigations Operations Division           Gerald R. Garren (JIB)                  (202) 501-4583
Director, Internal Operations Division                 Bruce S. McLean (JII)                   (202) 208-2384
SPECIAL AGENTS IN CHARGE (SAC)

Mid-Atlantic Regional Office                           SAC Christopher P. Cherry (JI-W)        (202) 252-0008
Philadelphia Regional Office                           SAC James E. Adams (JI-3)               (215) 861-3550
Northeast and Caribbean Regional Office                SAC James E. Adams (JI-2)               (215) 861-3550
Boston Regional Office                                 SAC Luis A. Hernandez (JI-1)            (617) 565-6820
Southeast Regional Office                              SAC James Taylor (JI-4)                 (404) 331-3084
Ft. Lauderdale Resident Office                         SA Floyd Martinez (JI-4M)               (954) 356-6993
Central Regional Office                                SAC Stuart G. Berman (JI-5)             (312) 353-7779
Mid-West Regional Office                               SAC John F. Kolze (JI-6)                (816) 926-7214
Denver Resident Office                                 SA Sean Gomez (JI-8)                    (303) 236-5072
Southwest Regional Office                              SAC Paul W. Walton (JI-7)               (817) 978-2589
Western Regional Office                                SAC David House (JI-9)                  (415) 522-2755
Laguna Niguel Resident Office                          SA Theresa Quellhorst (JI-9L)           (949) 360-2214
Northwest Regional Office                              SAC Terry J. Pfeifer (JI-10)            (253) 931-7654
OFFICE OF ADMINISTRATION

Assistant IG for Administration                        Larry Lee Gregg (JP)                    (202) 219-1041
Deputy Assistant IG for Administration                 Stephanie Burgoyne (JP)                 (202) 273-5006
Budget and Financial Management Office                 Director Stephanie Burgoyne (JPB)       (202) 273-5006
Contracting Office                                     Brenda Reynolds (JPC)                   (202) 501-2332
Executive Resources Staff/Human Capital Office         Supervisor Jack Mossop (JPE)            (202) 501-0821
Facilities and Support Services Office                 Supervisor Carol Mulvaney (JPF)         (202) 501-3119
Human Resources Division                               Director Denise McGann (JPH)            (202) 501-1734
Information Technology Division                        Director Rickey Eaton (JPM)             (703) 603-2323




52                               OFFICE OF THE INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Make
like
it’s your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:	
http://www.gsaig.gov/index.cfm/hotline/

Office of Inspector General
U.S. General Services Administration
